          EVALUATION REPORT


                       Evaluation of NRC’s Training
                        and Development Program


                       OIG-08-A-13     July 16, 2008




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                   July 16, 2008


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    EVALUATION OF NRC’S TRAINING AND DEVELOPMENT
                            PROGRAM (OIG-08-A-13)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Evaluation of
NRC’s Training and Development Program.

This report presents the results of the subject evaluation performed by Booz Allen
Hamilton, Inc., under contract to the NRC OIG. Agency comments provided at the exit
conference on June 9, 2008, have been incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
evaluation. If you have any questions or comments about our report, please contact me
at 415-5915 or Steven Zane, Team Leader, Financial and Administrative Audit Team,
at 415-5912.

Attachment: As stated
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
           Evaluation of the Nuclear Regulatory Commission’s
                   Training and Development Program




                            Contract Number: GS-23F-9755H



                                            June 19, 2008




The views, opinions, and findings contained in this report are those of the authors and should not be construed
as an official Nuclear Regulatory Commission position, policy, or decision, unless so designated by other official
                                                 documentation.
[Page intentionally left blank]
EXECUTIVE SUMMARY
Background

The Nuclear Regulatory Commission (NRC) Strategic Plan highlights the need
for the agency to provide a robust program of training, development, and
knowledge transfer to ensure that agency employees attain and sustain the skills
needed to implement the agency’s mission.1 NRC Human Resources Training
and Development (HRTD) offers a program of training and development for NRC
employees through the Professional Development Center (PDC) in Bethesda,
MD, and at the Technical Training Center (TTC) in Chattanooga, TN. Course
topics range from highly technical nuclear reactor and nuclear materials courses
to leadership development to desktop computer skills.


While HRTD has successfully met the majority of NRC’s training needs, the
agency has identified a number of challenges that may impact the ability of the
program to sustain the level of support it has provided to the agency thus far.
Many of these challenges are the result of a planned increase of 600 new
employees by 20092 to address the expected growth in licensing and
construction of new nuclear power plants to meet the Nation’s increased demand
for energy production. Other challenges that will impact training and
development includes the need for new skills in threat analysis and emergency
preparedness, the introduction of new nuclear power technologies, increased
licensing and regulatory activities to renew existing power plant licenses,
increased need to train Agreement State personnel, impending attrition due to
retirements, and a new emphasis on telecommuting.




1
  United States, Nuclear Regulatory Commission, Strategic Plan Fiscal Years 2008-2013 (2003) 19.
2 Dale E. Klein. Remarks Prepared for GE Nuclear Innovations Conference, Orlando, FL, 6 June 2007.


                                                                                                     i
Purpose
Due to the elevated significance of training, the Office of the Inspector General
(OIG) identified a need to evaluate NRC’s Training and Development Program to
determine its effectiveness to meet current and future needs.


Results in Brief
The evaluation team reviewed relevant existing reports on the Training and
Development Program and conducted qualitative research consisting of one-on-
one interviews with knowledgeable HRTD staff members, agency employees,
managers, and executives, and found that:

   •   Efforts to maintain training documents, track changes, and control
       versions are not consistent across all branches within HRTD.

   •   Regional offices have difficulties in scheduling new and current employees
       for training. Additionally, some course schedules increase travel costs
       and time away from job responsibilities.

   •   HRTD has limited ability to demonstrate the impact of its Training and
       Development Program on NRC’s mission using current performance
       measures.

   •   Current evaluation strategies are limited in their ability to demonstrate the
       effectiveness of training.

   •   HRTD’s continued reliance on the traditional classroom as the primary
       delivery method for training is being strained by an increasing number of
       students as well as new training needs.

   •   In order to move into other forms of training delivery, HRTD will need to
       enhance or supplement the skill sets of its staff.




                                                                                       ii
Efforts to maintain training documents, track changes, and control
versions are not consistent across all branches within HRTD.


HRTD has developed operating procedures to define its processes for the
development and management of training content. The evaluation team
observed that content management practices varied among branches and
instructors at both the TTC and PDC. Inconsistent and incomplete content
management practices and tools have hampered HRTD’s ability to manage and
control content. The inability to consistently manage and control content impacts
HRTD’s ability to provide effective and relevant training and development
programs.


Regional offices have difficulties in scheduling new and current employees
for training. Additionally, some course schedules increase travel costs and
time away from job responsibilities.


HRTD provides most of the formal training courses required for NRC qualification
programs and for leadership training. Staff in the regional offices stated that it is
often difficult for employees to schedule and attend the training that is necessary
to attain or maintain qualifications or that is required for new supervisors. In
addition, increasing travel costs have made it difficult to send employees to
necessary training, especially when the training requires frequent, short-term
trips to the Washington, DC, area. HRTD’s annual training needs assessment
has not been highly effective in getting the information needed from the regions
in order to schedule training. Employees’ inability to schedule training in a timely
fashion has delayed the acquisition of skills needed to perform their jobs and
meet qualification requirements.




                                                                                        iii
HRTD has limited ability to demonstrate the impact of its Training and
Development Program on NRC’s mission using current performance
measures.


To show its value to the organization, the Training and Development Program
must show how its training solutions link to strategic outcomes and if the
solutions justify the cost. HRTD’s current performance metrics fail to provide
meaningful insight into how its programs align with the agency’s mission and
strategic goals, or demonstrate training efficiency and effectiveness. HRTD has
encountered challenges in producing credible, reliable, and consistent
performance measures. Without effective performance metrics, HRTD is unable
to demonstrate its contribution to NRC’s mission and risks future support and
funding.


Current evaluation strategies are limited in their ability to demonstrate the
effectiveness of training.


A systematic evaluation approach and process allows for continuous
improvement within the training function when aligned with organizational goals.
NRC does not use a systematic evaluation process for continuously improving its
training and development program because it has not:

   •   Developed a strategy for collecting pertinent evaluation data.

   •   Finalized the draft evaluation procedure.

   •   Evaluated the current Learning Management System (LMS) capability for
       data collection.


Without a strategy that standardizes the training evaluation procedure and
metrics, NRC cannot accurately measure and monitor its achievement of goals.




                                                                                   iv
HRTD’s continued reliance on the traditional classroom as the primary
delivery method for training is being strained by an increasing number of
students as well as new training needs.


NRC is facing workforce challenges that make e-learning a viable alternative to
the traditional classroom, which is currently used for the majority of courses.
HRTD has recognized the benefit that new training methodologies could bring to
the agency and has deployed a new LMS which expands on-line learning
capabilities. However, HRTD has not developed an e-learning strategy or
implementation plan to maximize the benefits of this investment and ensure it is
helping HRTD meet the agency’s most pressing training needs. HRTD staff is
strained to meet all of the training needs in the traditional classroom with its
current staff and facility resources, but additional funding to support e-learning
initiatives may be difficult to obtain without a defined strategy and implementation
plan.


In order to move into other forms of training delivery, HRTD will need to
enhance or supplement the skill sets of its staff.


Organizations that have implemented e-learning solutions have found the skills
needed to develop technology-enabled learning are very different from those
needed for classroom instruction. Staff in HRTD noted that there are limited
skills and resources for the development and deployment of e-learning among
the current staff. If NRC plans to implement more e-learning solutions, HRTD will
need to find ways to close the e-learning skill gaps—either through training,
hiring, or outsourcing. Attempting to develop effective e-learning programs
without the necessary skills can lead to frustration for the staff and ineffective
learning opportunities for employees.


Recommendations:
We recommend that the Executive Director for Operations:


                                                                                     v
1.   Review the current course files to identify gaps in necessary documentation.
2.   Develop a plan and timeline for completing any missing course
     documentation.
3.   Complete HRTD Operating Procedure 404 – Training Material Control, to
     include a standard process for version control, tracking changes, and
     assigning accountability for changes.
4.   Develop a plan to centralize course materials in one location, preferably a
     central repository on a shared server.
5.   Develop a lifecycle maintenance procedure for periodically reviewing
     courses to ensure the learning objectives are still valid, the delivery
     mechanism is still the most effective, or the course is still meeting
     stakeholder needs.
6.   Form a working group of select representatives from the program offices,
     regional offices, and HRTD to conduct a thorough review of the training
     calendar including location and frequency of courses, travel costs, and
     opportunities for efficiencies in course sequencing (i.e., course bundling).
     The group should identify problems and develop mutually agreed-upon
     solutions within the constraints of contractual agreements, budgets, and
     resources.
7.   Within contractual limitations, identify and schedule courses at the same
     time each year so employees can anticipate the availability of courses.
     Communicate these courses and dates widely to make sure employees,
     supervisors, training coordinators, and managers are aware of the annual
     schedule.
8.   Before implementing the enforcement of course prerequisites in the
     Learning Management System:
      a. Determine the impact on employees’ ability to take all required training
          within the allotted timeframe.
      b. Communicate the change to NRC personnel in advance and allow
          opportunities for feedback.




                                                                                    vi
9.    Develop and implement new performance metrics to demonstrate mission
      alignment, effectiveness, and efficiency.
10.   Develop and implement a plan to leverage the capabilities of the LMS for
      collection and reporting of chosen metrics. Specifically, evaluate the
      competency model capabilities to determine if they meet NRC’s needs,
      including identifying competencies, linking courses (or course modules and
      learning objectives) to identified competencies, and closing critical skill
      gaps.
11.   Develop and implement a comprehensive cost tracking capability (including
      cost data for each course) to determine the most economical and efficient
      method to meet NRC’s training needs.
12.   Finalize Operating Procedure 410 including a new standardized student
      feedback form.
13.   Develop an evaluation strategy plan that defines the data HRTD needs to
      collect at varying levels to demonstrate the impact of its programs on the
      agency.
14.   Evaluate the capability for collecting evaluation data via the Learning
      Management System.
      a. If the Learning Management System’s capabilities meet the agency’s
          needs, develop a business case for purchase and deployment of
          additional capabilities.
      b. If the Learning Management System’s capabilities do not meet the
          agency’s needs, develop a plan for using alternative technologies to
          collect and analyze evaluation data.
15.   Develop an e-learning strategy that establishes a broad, fundamental
      connection between e-learning and organizational mission, strategy,
      business objectives and performance improvement.
16.   Develop an implementation plan for e-learning that includes, at a minimum:
      a. An assessment of NRC’s baseline technology.
      b. A plan for roll-out, implementation, maintenance and ongoing evaluation
          of additional Learning Management Systems capabilities. The


                                                                                    vii
           implementation plan should include a cost/benefit analysis of the
           available LMS features and how they can support NRC’s business
           needs.
17.   Develop a process similar to the Strategic Workforce Planning Process to:
      a. Determine the e-learning skill sets necessary to meet NRC’s business
           needs.
      b. Assess the current staff to determine the availability of the needed
           skills.
      c.   Develop a plan to close any identified gaps—either through training,
           hiring, or outsourcing.


Agency Comments
OIG provided this report in draft to agency officials on June 3, 2008, and
discussed its content at an exit conference on June 9, 2008. We modified the
report as we determined appropriate in response to the discussion. Agency
officials generally agreed with the report’s findings and recommendations and
opted not to provide formal comments.




                                                            Booz | Allen | Hamilton
                                                       13200 Woodland Park Road
                                                                     One Dulles
                                                             Herndon, VA 20171




                                                                                  viii
ABBREVIATIONS AND ACRONYMS

ASTD          American Society for Training and Development

FY            fiscal year

GAO           United States Government Accountability Office

HRMS          Human Resources Management System

HRTD          Human Resources Training and Development

LMS           Learning Management System

NRC           United States Nuclear Regulatory Commission

NRO           Office of New Reactors

OIG           Office of the Inspector General

PDC           Professional Development Center

ROI           Return on Investment

SAT           Systems Approach to Training

SOW           Statement of Work

SWP           Strategic Workforce Planning

TTC           Technical Training Center
[Page intentionally left blank]
                                 TABLE OF CONTENTS

1. Background                                                             3


2. Purpose                                                                6


3. Findings                                                               7

   3.1   Content Management                                               7

   3.2   Effectiveness and Efficiency of the Training Calendar           14

   3.3   Performance Metrics                                             20

   3.4   Evaluation Strategies                                           30

   3.5   Alternative Delivery Mechanisms for Training                    37

   3.6   Staff Skill Sets                                                43


4. Consolidated List of Recommendations                                  47


5. Appendices                                                            50

   A.1   Scope and Methodology                                           50

   A.2   Materials Reviewed                                              57

   A.3   Suggested Components of an e-Learning Implementation Plan       61

   A.4   Training Evaluation Levels                                      63




                                                                     1 of 63
[Page intentionally left blank]




                                  2 of 63
    1. Background
The Nuclear Regulatory Commission (NRC) Strategic Plan highlights the need for the
agency to provide a robust program of training, development, and knowledge transfer to
ensure that agency employees attain and sustain the skills needed to implement the
agency’s mission.3 NRC Human Resources Training and Development (HRTD) has
articulated its plan to help the agency accomplish its mission and goals in the NRC
Training and Development Strategic Plan, which focuses priorities and resources in an
effort to achieve measurable results.4


HRTD’s plan contains four goals:


        1. Training and development enhance individual performance.

        2. Agency training needs are identified and met.

        3. Training resources are optimized and the agency realizes the intended
            benefits.

        4. Training policies and practices encourage continuous improvement and
            optimal organizational performance.5


HRTD offers a program of training and development for NRC employees through the
Professional Development Center (PDC) in Bethesda, MD, and at the Technical
Training Center (TTC) in Chattanooga, TN. Course topics range from highly technical
nuclear reactor and nuclear materials courses to leadership development to desktop
computer skills. To make learning opportunities as widely accessible as possible,
HRTD offers some courses in the regional offices or at other locations across the United




3
  United States, Nuclear Regulatory Commission, Strategic Plan Fiscal Years 2008-2013 (2003) 19.
4 United States, Nuclear Regulatory Commission, Training and Development Strategic Plan, NUREG/BR-0332 (Feb
  2007) 1.
5
  Training and Development Strategic Plan 3.



                                                                                                     3 of 63
States. HRTD also launched a new Learning Management System (LMS) in April 2008
which expands NRC’s online learning capabilities.


While HRTD has successfully met the majority of NRC’s training needs, the agency has
identified a number of challenges that may impact the ability of the program to sustain
the level of support it has provided to the agency thus far. Many of these challenges
are the result of a planned increase of 600 new employees by 20096 to address the
expected growth in licensing and construction of new nuclear power plants to meet the
Nation’s increased demand for energy production.7 NRC’s ability to effectively review
and license the new generation of commercial nuclear reactors will depend significantly
on how well new employees are trained and developed to be effective reviewers and
regulators at the staff and senior management level.8


In addition to a significant increase in staffing levels, NRC faces other challenges that
will impact training and development.

    •   Needs for new critical skills, such as threat analysis and emergency
        preparedness, have emerged because of 9/11.

    •   New technologies in the nuclear power industry (e.g., the replacement of analog
        safety systems and control room instrumentation with digital systems) will also
        require new skill sets.

    •   Increased licensing and regulatory activities will be associated with the renewal
        of existing power plant licenses and requests for reactor power uprates. NRC is
        also planning for the licensing of Yucca Mountain as a high-level waste
        repository.


6 Dale E. Klein. Remarks Prepared for GE Nuclear Innovations Conference, Orlando, FL, 6 June 2007.
7
  HRTD is partnering with the Office of New Reactors (NRO) to develop new courses to address the construction and
  licensing of new reactors and their associated technologies. According to an NRO representative, the new
  curriculum needs to be available in two years. HRTD has piloted two courses for construction inspection and is
  beginning development of a construction quality assurance course. In some instances, NRO and HRTD are using
  the skills of rehired annuitants to assist in the development of these courses.
8 United States, Nuclear Regulatory Commission, Fiscal Year 2006 Performance and Accountability Report (2006)
  132.


                                                                                                          4 of 63
      •   The agency has an increased need to train staff on risk-informed and
          performance-based regulatory approaches.

      •   As more NRC Agreement States assume the regulatory responsibilities for
          nuclear materials, these States have an increased need to train their personnel.

      •   NRC expects a high rate of attrition in the coming years as members of its highly
          technical workforce become eligible for retirement.

      •   NRC is hiring a younger generation of employees to replace the retiring
          workforce. As of May 24, 2008, the average age of the workforce had dropped to
          46.9 and 11 percent of the permanent workforce was age 29 or under. NRC is
          continuing its efforts to hire younger employees.

      •   In order to attract and retain new employees, NRC has identified the need to
          offer more attractive benefits like telecommuting, which will increase the
          demands on the agency’s technical infrastructure and traditional classroom
          training methods.9




9
    United States, Nuclear Regulatory Commission, Fiscal Year (FY) 2004-2009 Strategic Human Capital and
    Workforce Restructuring Plan (March, 2003) 3-4.


                                                                                                           5 of 63
 2. Purpose
Due to the elevated significance of training, the Office of the Inspector General (OIG)
identified a need to evaluate NRC’s Training and Development Program to determine its
effectiveness to meet current and future needs. The OIG requested a thorough analysis
of the program’s efficiency and effectiveness, combining a review of relevant existing
reports on the program as well as qualitative research consisting of one-on-one
interviews with knowledgeable HRTD staff, agency employees, managers, and
executives. This evaluation did not include a review of specific courses or curricula,
e.g., new reactor licensing, new reactor construction, or the next generation of reactor
technologies.


The evaluation team assessed the program to determine if it was:


   •   Scalable: Were current training methods and development activities and tools
       sufficient to accommodate fluctuations in the size of the workforce?

   •   Accountable: Were agency training needs systematically identified and were
       they being met by the current curriculum?

   •   Trackable: Did the metrics, tools, and information gathering devices in use
       adequately identify whether training and employee development activities
       achieve required individual and organizational performance goals?

   •   Aligned with Mission: Were training resources, including funding, aligned so
       that employees receive the training and performance support they need, when
       they need it, so that they are ready to perform as soon as possible after being
       brought into the agency?


Appendix A.1. includes a detailed description of the methodology used for this
evaluation.




                                                                                     6 of 63
 3. Findings
The evaluation team reviewed background documentation and interviewed
knowledgeable NRC staff members to develop a good understanding of the current
Training and Development Program. Our analysis identified the following areas for
improvement:
      1. Efforts to maintain training documents, track changes, and control versions are
         not consistent across all branches within HRTD.
      2. Regional offices cited difficulties in scheduling new and current employees for
         training. Additionally, some course schedules increase travel costs and time
         away from job responsibilities.
      3. HRTD has limited ability to demonstrate the impact of its Training and
         Development Program on NRC’s mission using current performance measures.
      4. Current evaluation strategies are limited in their ability to demonstrate the
         effectiveness of training.
      5. HRTD’s continued reliance on the traditional classroom as the primary delivery
         method for training is being strained by an increasing number of students as well
         as new training needs.
      6. In order to move into other forms of training delivery, HRTD will need to enhance
         or supplement the skill sets of its staff.


3.1     Content Management

HRTD has developed operating procedures to define its processes for the development
and management of training content. The evaluation team observed that content
management practices varied among branches and instructors at both the TTC and
PDC. Inconsistent and incomplete content management practices and tools have
hampered HRTD’s ability to manage and control content. The inability to consistently
manage and control content impacts HRTD’s ability to provide effective and relevant
training and development programs.


                                                                                         7 of 63
3.1.1 HRTD has developed operating procedures to define its processes for the
         development and management of training content.

HRTD has recognized that following an industry-recognized process (the Systems
Approach to Training10) for the development of training materials is the first step toward
achieving training effectiveness. HRTD’s Operating Procedure No. 406 states that
HRTD staff and contractors will use the Systems Approach to Training (SAT) in the
development of course content.11 As articulated in HRTD’s operating procedure,
documents generated as part of the SAT process include:

     •   Needs analysis.

     •   Training plan.

     •   Learning objectives.

     •   Course materials including course manuals and presentation materials.

     •   Lesson plan.

     •   Exam bank.

     •   Course feedback tools.

     •   Training aids.


HRTD has also recognized that maintaining and updating training materials is critical to
providing an effective and relevant Training and Development Program. In the Training
and Development Strategic Plan, HRTD states that courses must contain current
regulatory, technical, and policy information so students have the latest information to


10
    The Systems Approach to Training is an industry-recognized process for the analysis, design, development,
   implementation, and evaluation of training programs.
11
    United States, Nuclear Regulatory Commission, Human Resources Training and Development (HRTD) Operating
   Procedure (OP) No. 406: Training Program Development Process, 30 June 2007.


                                                                                                       8 of 63
assist them in the performance of their duties.12 HRTD is currently developing HRTD
Operating Procedure 404 – Training Material Control which outlines a process for
identifying and making content updates.13


Bersin & Associates, a leader in training and development research, has found many
organizations are putting greater efforts into content management strategies to increase
efficiency and effectiveness, ensure content quality and consistency, and meet
compliance requirements by controlling content versions and tracking changes.14


Content management strategies usually address the following:

      •    Centralization of learning content - A central repository for all learning content
           makes it easier for organizations to ensure all learning content is complete and
           facilitates identification of reusable content.15

      •    Content maintenance – For training to remain relevant and effective, the
           content must be regularly maintained to ensure it is up-to-date, correct, and
           complete. Maintenance, along with version control and tracking, are easier when
           all content is centrally located and searchable.16

      •    Course review – Beyond content maintenance, organizations should periodically
           review courses to ensure learning objectives, delivery methods, and evaluation
           strategies are still valid; the learning objectives still support the mission; and
           stakeholder needs are still being met. Organizations need a plan to identify a
           systematic “review, revise and release cycle” which includes triggering
           mechanisms and measurement criteria.17 Such a lifecycle maintenance process
           provides an opportunity for the organization to determine if the course still meets

12
     Training & Development Strategic Plan, 6.
13
   United States, Nuclear Regulatory Commission, Human Resources Training and Development (HRTD) Operating
   Procedure (OP) No. 404: Training Material Control, (in draft).
14
   Chris Howard, “Learning Content Management Systems: What Works,” Bersin & Associates, Oct 2005, 9.
15
     Howard, 10.
16
     Bill Brandon, “Handbook of e-Learning Strategy,” The e-Learning Guild, 2007, 7.
17
     Bill Brandon, “Handbook of e-Learning Strategy,” The e-Learning Guild, 2007, 7.



                                                                                                    9 of 63
           the business needs and to ensure the course is still fresh, timely, and engaging
           for learners.


3.1.2 Content management practices varied among branches and instructors at both
           the TTC and PDC.

The evaluation team interviewed a total of eleven instructors, eight instructors at the
TTC and three instructors at the PDC. Of those instructors interviewed, seven
instructors stated that they adhere to elements of the SAT process and develop most of
the prescribed documentation. Two instructors for nuclear materials courses stated that
they have not followed the complete process and, as a result, some of the course
documents are missing or incomplete. Because of their familiarity with the subject
matter, some instructors have forgone the development of some training materials (e.g.,
lesson plans and learning objectives) and rely solely on their presentation materials as
their course documentation.


The current practice for keeping learning content up-to-date is inconsistent and
sometimes informal. HRTD instructors are using several different means to identify and
incorporate necessary changes in course materials. During this evaluation, HRTD was
in the process of drafting a new procedure for the control of training materials. Although
HRTD has not yet implemented the procedure, the evaluation team did find that some
instructors were using the Training Deficiency Materials Report prescribed by the draft
procedure to identify necessary changes and assign accountability for making
revisions.18 Other instructors stated that they make necessary updates to course
materials as they prepare to instruct each session. Some instructors rely on subject
matter experts within NRC to inform them of necessary changes. Instructors stated that
students have identified outdated material in their courses. In many cases, needed




18
     The Training Materials Deficiency Report is contained in HRTD’s draft Operating Procedure 404 – Training
     Material Control. The operating procedure discusses the use of a paper system using the Training Materials
     Deficiency Report as a tracking mechanism for training material discrepancies. The procedure also allows for the
     use of a paperless system, such as a spreadsheet or database, in lieu of the paper form.


                                                                                                              10 of 63
changes identified by students or instructors were communicated verbally or informally.
For most contracted courses, HRTD relied on the contractor to make updates.


The evaluation team did not note or observe any mechanism or quality assurance
process to ensure changes are incorporated consistently across multiple affected
courses. Individual instructors make changes to the courses for which they are
responsible. The evaluation team noted that there appears to be no mechanism in
place to determine if a change might impact more than one course. Any efforts to make
content changes across multiple courses would be difficult because HRTD does not
have a means to centralize or search all course materials. HRTD has encountered
technology barriers to centralizing its course materials and is currently conducting a
baseline assessment of its technical infrastructure. One of the objectives is to
determine how it can centralize training materials.


While HRTD performs almost continuous updates to training materials as content
changes are identified, it does not have a procedure in place to review course materials
in a more holistic manner. Simply updating course content does not ensure that the
course still meets the learning objectives, that the learning objectives are still valid, that
the delivery mechanism is still the most effective, or that the course is still meeting the
needs of stakeholders. HRTD has conducted such reviews for some courses and
curricula when they have identified issues. However, there is no procedure for
conducting course reviews on a more proactive basis.


3.1.3 Inconsistent and incomplete content management practices and tools have
       hampered HRTD’s ability to manage and control content.

Although HRTD has a procedure in place for the development of courses according to
the SAT process, managers have not consistently enforced the procedure across all
branches of the Training and Development Program. The varying degree to which
instructors adhere to the principles of the SAT process results in gaps in HRTD’s course
materials and supporting documentation.



                                                                                        11 of 63
HRTD has not completed or implemented the new procedure for the control of training
materials. Since current practices to update course content are inconsistent, students
and supervisors have found that course materials are sometimes outdated or incorrect.


In addition, the lack of a central location (or repository)19 for all course materials
hampers the ability of instructors to search content and make changes consistently
across all courses. It also hampers the ability of HRTD management to ensure that all
prescribed course materials are in place and up-to-date. During this evaluation, HRTD
management and regional offices identified deficiencies with the agency’s IT
infrastructure, particularly inadequate bandwidth, as contributing factors in the inability
to share training materials across the agency. A representative from the Office of
Information Systems (OIS) is currently working with HRTD to evaluate their current
technology baseline and the infrastructure needed to support their strategic goals.


Since HRTD does not have a policy or procedure for the lifecycle maintenance of
courses, there is no mechanism in place to ensure HRTD periodically reviews courses.
Consequently, courses may be out of alignment with business needs and learning
objectives. Also, other delivery methods may prove to be more cost effective or
efficient.


3.1.4 The inability to consistently manage and control content impacts HRTD’s ability
           to provide effective and relevant training and development programs.

Since instructors are not always following the prescribed SAT process, course materials
are sometimes incomplete. While seasoned instructors may feel comfortable relying
solely on their presentation materials to teach courses, such an approach does not
ensure that instructor knowledge is transferred to the next generation of instructors
hired by the agency. As current instructors retire and HRTD looks to more e-learning


19
      “Central location” refers to a shared site or shared server that may be accessed by all HRTD personnel. A
     repository is a more sophisticated software system that facilitates the discovery, sharing, and reuse of learning
     content. Repositories often have well-designed user interfaces and architectures that make them easy to use and
     permit various levels of interactivity including search, submissions, comments/reviews, and creating personal
     collections.


                                                                                                               12 of 63
and blended strategies for training, it will be critical to have up-to-date and accurate
materials that new instructors and instructional designers can rely upon for course
design and delivery.


Additionally, the potential for course materials to be out-of-date or incomplete is
increased due to the lack of a defined procedure for the control and maintenance of
training materials. Staff members stated that they have noted outdated or incorrect
material in some courses. For example, in the materials and fuel facilities areas,
students and supervisors stated that materials were not always up-to-date, particularly
for self-study or where technology changes rapidly. If students are finding outdated
material in courses, it risks putting the credibility of the course into question.


Since HRTD lacks a central repository for course materials, master course files and
materials are stored and maintained in multiple locations. As a result, it is difficult for
instructors to search across courses to identify information that may need to be updated
or changed. The possibility exists for students to get conflicting information in different
courses.


Because HRTD does not have a procedure to review courses periodically as a whole,
they may be offering courses, or parts of courses, that are no longer relevant or aligned
to the mission of the agency or they may be missing opportunities to identify more
effective or efficient delivery methods.


RECOMMENDATIONS:
We recommend that the Executive Director for Operations:

1.   Review the current course files to identify gaps in necessary documentation.
2.   Develop a plan and timeline for completing any missing course documentation.
3.   Complete HRTD Operating Procedure 404 – Training Material Control, to include a
     standard process for version control, tracking changes, and assigning
     accountability for changes.



                                                                                       13 of 63
4.       Develop a plan to centralize course materials in one location, preferably a central
         repository on a shared server.
5.       Develop a lifecycle maintenance procedure for periodically reviewing courses to
         ensure the learning objectives are still valid, the delivery mechanism is still the
         most effective, or the course is still meeting stakeholder needs.


3.2      Effectiveness and Efficiency of the Training Calendar

As stated in the Training and Development Strategic Plan, one of HRTD’s goals is to
identify and meet the agency’s training needs. HRTD provides most of the formal
training courses required for NRC qualification programs and for leadership training.
Staff in the regional offices stated that it is often difficult for employees to schedule and
attend the training that is necessary to attain or maintain qualifications or that is required
for new supervisors. In addition, increasing travel costs have made it difficult to send
employees to necessary training, especially when the training requires frequent, short-
term trips to the Washington, DC, area. HRTD’s annual training needs assessment has
not been highly effective in getting the information needed from the regions in order to
schedule training. Employees’ inability to schedule training in a timely fashion has
delayed the acquisition of skills needed to perform their jobs and meet qualification
requirements.


3.2.1 The Training and Development Strategic Plan states that HRTD is responsible
           for identifying and meeting the agency’s training needs.

In order to meet its safety goals, NRC has noted the importance of maintaining trained
inspectors at nuclear power reactors, fuel cycle sites, regional offices, and the agency’s
Headquarters.20 To ensure NRC personnel can effectively review and license nuclear
reactors and regulate the use, transportation, storage, and disposal of radioactive
materials, the agency has developed highly structured qualification programs that
include a significant amount of formal training along with self-study assignments and on-


20
     Strategic Plan Fiscal Years 2004-2009, 10.



                                                                                         14 of 63
the-job training. Inspectors, reviewers, and examiners must successfully complete the
applicable requirements of the qualification programs within 24 months.


According to NRC Inspection Manual Chapters 1245 and 1246, employees are required
to take the formal qualification training courses in sequence—completing basic level
prerequisite courses before enrolling in the more advanced courses. The manual
chapters state that a deviation is required from the program office to allow an employee
to take the courses out of sequence. Additionally, inspectors are required to attend
advanced and refresher training to maintain their inspector qualifications and keep
current with inspection and licensing programs. The qualification programs include self-
study, formal training courses, and on-the-job training.


In addition to the technical skills necessary to support the agency’s licensing and
regulation activities, NRC supervisors in some regions and program offices are required
to complete a series of leadership courses within two years of assuming a supervisory
role.21 These leadership development courses range in length from .5 days to 4 days.


The TTC and PDC provide most of the formal training courses required for NRC
qualification programs and for supervisory training. These training courses range in
length from less than a day to several weeks and are offered mainly at the TTC in
Chattanooga, TN, or the PDC in Bethesda, MD. HRTD offers some of these courses in
the four regional offices.


The Training and Development Strategic Plan contains two goals that address the
scheduling and delivery of training courses. Goal 2 is to “…ensure agency training
needs are identified and met.”22 As a part of Goal 2, HRTD has noted that close
coordination with program offices and regional offices is critical to identifying and




21
   United States, Nuclear Regulatory Commission, Region II, Regional Office Instruction, No. 0402, Rev. 5, 20 April
   2005.
22
   Training and Development Strategic Plan, 5.



                                                                                                            15 of 63
understanding training needs, as well as to coordinate training and development
activities.


Goal 3 in the Strategic Plan states that HRTD will, “…ensure training resources are
optimized and the agency is realizing the intended benefits of training.”23 One of the
strategies HRTD listed for meeting this goal is to, “…improve the processes for
planning, budgeting, and scheduling training and development resources and activities.”
The plan identifies the need for HRTD to improve its methods for anticipating training
needs and for improving the training needs survey (also called the training needs
assessment).


3.2.2 During the course of this evaluation, numerous employees and supervisors noted
           obstacles they or their staff members have in scheduling training that is
           necessary for them to do their jobs as inspectors, reviewers, examiners or
           supervisors.

In general, regional staff noted the following difficulties in scheduling employees for
needed training courses:

      •    Inability to plan training far enough in advance – Inspection schedules are
           determined 18 months in advance. Once an inspection is planned, any changes
           to the schedule are highly discouraged. Since HRTD publishes some training
           opportunities only six to twelve months in advance, inspectors find it difficult to
           plan their inspection calendars around the training courses they need to take.
           The fact that some courses are offered infrequently (1-2 times per year)
           complicates the matter further.


           HRTD has initiated an effort to schedule some courses (particularly those taught
           by HRTD staff) at the same time each year to allow employees to plan training
           opportunities, but the ability to schedule other courses 18 to 24 months in


23
     Training and Development Strategic Plan, 8.



                                                                                          16 of 63
    advance may be limited by contractual requirements. Some NRC personnel
    were not aware that HRTD schedules some courses at the same time each year.

•   Problems scheduling new employees into the necessary qualification
    training programs – Regional office supervisors noted that they have had
    difficulties getting new employees into requisite training programs immediately
    upon hire. Since employees cannot conduct inspections until they have
    completed the basic training requirements, offices cannot use new employees as
    quickly as they would like in the inspection process.


    Supervisors and employees have developed “work arounds” to help alleviate the
    problem, but these alternatives are not always in the best interest of the
    employee or the agency. For example, some employees enroll in training
    courses out of sequence so they can complete their qualification training during
    the required timeframe. Although the inspection manual states that a deviation is
    required to take the courses out of order, the requirement has not been
    consistently enforced. The new Learning Management System (LMS) has the
    capability to enforce the completion of prerequisite courses before allowing
    enrollment in subsequent courses, which may further extend the time needed to
    complete qualification requirements. However, this capability has not yet been
    implemented. In other instances, supervisors stated that they register for training
    courses in their own name to hold a space for new hires. When the employee is
    hired, the supervisor will request that HRTD switch the registration into the new
    hire’s name. If the employee is not hired in time to take the class, the slot may
    go unfilled, thus preventing others from attending the training and incurring an
    unnecessary cost for HRTD.

•   Excessive travel costs and reduced productivity to send employees,
    especially new supervisors, to requisite training – Several of the new
    supervisor training courses are of very short duration and are offered mainly at
    the PDC. The regional offices have found it burdensome and costly to send their
    employees to the Washington, DC, area multiple times for short courses.


                                                                                 17 of 63
       Although HRTD has occasionally offered some of these courses in the regional
       offices, the regions still find it difficult to include the resident inspectors who are
       located at multiple sites. In addition, HRTD has responded to regional needs by
       offering some courses consecutively to reduce the number of times an employee
       must travel to complete the training. Two courses in the supervisory series are
       now available online or on DVD.


3.2.3 HRTD’s annual training needs assessment has not been highly effective in
       providing the information needed to plan an effective training calendar.

HRTD solicits training requirements from the regional offices and program offices via an
annual training needs assessment. The assessment asks agency personnel to project
the number of employees they will send to HRTD training courses in each quarter of the
fiscal year. In addition, it provides offices an opportunity to identify new training needs.
HRTD also works through the training coordinators in the regional and program offices
to identify training needs.


HRTD has recognized the need to improve their training needs assessment as
mentioned in the Training and Development Strategic Plan. Regional personnel stated
that the annual assessment may not be the most effective method for planning annual
training events; especially since it only projects training needs for 12 months. They also
stated that their input has not always been accurate and complete.


The structure of the training needs assessment does not provide opportunities for NRC
personnel to identify scheduling problems, such as those mentioned above. Engaging
select supervisors in a working group to conduct a review of the training calendar may
be a more effective means of gaining meaningful input from the regions and program
offices. The group could consider the following measures to improve the training
calendar:

   •   Offer courses in more convenient/cost-effective locations.




                                                                                         18 of 63
       •   Combine courses to reduce travel costs.

       •   Publish training activities at least 18 months in advance.

       •   Use more alternative delivery methods such as Web-based training or video
           teleconferencing.


All decisions must necessarily take into account contractual agreements, budgets, and
available resources. The working group format would allow a two-way dialog between
HRTD and field personnel that is not currently supported by the needs assessment.


As mentioned above, HRTD has two initiatives underway that may impact the ability of
employees to plan training in advance. First, HRTD’s effort to schedule courses at the
same time each year should allow employees to better plan training opportunities in
advance, but the ability to schedule some courses 18 to 24 months in advance may be
limited by contractual agreements. Secondly, if HRTD chooses to enforce the
completion of prerequisites using the LMS, it may increase the length of time necessary
for employees to complete the required courses.


3.2.4 Employees’ inability to schedule training in a timely fashion has delayed the
           acquisition of skills needed to perform their jobs and meet qualification
           requirements.

Delays in obtaining training have affected the ability of supervisors to schedule new
employees for necessary work assignments. With the increasing inspection workload,
supervisors need to ensure employees are able to be fully productive as soon as
possible. In some instances, employees have been on training course wait lists for a
significant amount of time before they could get into the necessary training.24 A few



24
      Several factors influence the length of time an employee must wait to get into a course, including the type of
     course, the frequency with which it is offered, and when the employee requires the training for qualification or
     requalification. For example, HRTD only offers some courses twice a year, so the wait may be 6 to 12 months. The
     wait time is much less for courses that are offered more frequently. All employees interviewed stated that they
     eventually received the training they needed.


                                                                                                            19 of 63
found it necessary to obtain a waiver for required training in order to appear before their
qualification boards as scheduled.


Regional personnel noted that they often spend a significant amount of time
coordinating and negotiating with HRTD staff to get individual employees enrolled in
needed training courses. As NRC continues to grow, it may become more difficult to
use these informal methods to ensure employees get the training they need.


RECOMMENDATIONS:
We recommend that the Executive Director for Operations:

6.    Form a working group of select representatives from the program offices, regional
      offices, and HRTD to conduct a thorough review of the training calendar including
      location and frequency of courses, travel costs, and opportunities for efficiencies in
      course sequencing (i.e., course bundling). The group should identify problems
      and develop mutually agreed-upon solutions within the constraints of contractual
      agreements, budgets, and resources.
7.    Within contractual limitations, identify and schedule courses at the same time each
      year so employees can anticipate the availability of courses. Communicate these
      courses and dates widely to make sure employees, supervisors, training
      coordinators, and managers are aware of the annual schedule.
8.    Before implementing the enforcement of course prerequisites in the Learning
      Management System:
      a. Determine the impact on employees’ ability to take all required training within
          the allotted timeframe.
      b. Communicate the change to NRC personnel in advance and allow
          opportunities for feedback.


3.3   Performance Metrics

To show its value to the organization, the Training and Development Program must
show how its training solutions link to strategic outcomes and if the solutions justify the


                                                                                     20 of 63
cost. HRTD’s current performance metrics fail to provide meaningful insight into how its
programs align with the agency’s mission and strategic goals, or demonstrate training
efficiency and effectiveness. HRTD has encountered challenges in producing credible,
reliable, and consistent performance measures. Without effective performance metrics,
HRTD is unable to demonstrate its contribution to NRC’s mission and risks future
support and funding.


3.3.1 In order to show value to the organization, the Training and Development
           Program must show how its training solutions link to strategic outcomes and if
           the solutions justify the cost.

Government agencies and the programs they offer are increasingly being called upon to
prove their impact in order to justify their budgets. The President’s Management
Agenda places increasing emphasis on accountability and demonstrating performance.
“Over time, agencies will be expected to identify high quality outcome measures,
accurately monitor the performance of programs, and begin integrating this presentation
with associated cost.”25


NRC has recognized the growing trend in Government accountability and, as a result,
included an operational excellence strategy for strengthening accountability for setting
and achieving individual and organizational performance expectations in its 2008-2013
Strategic Plan.26 The agency identified the need to, “…incorporate effectiveness and
efficiency measures in the NRC planning and performance measurement process
throughout the agency.”27


In this environment of increasing accountability, Government decision makers and
agency leaders are placing more emphasis on the need to demonstrate results
achieved through the significant investments devoted to training and developing
employees. Training and development programs are finding it more important to show


25
     United States, Office of the President, President’s Management Agenda, (Washington: 2002) 29.
26
     United States, Nuclear Regulatory Commission, Strategic Plan Fiscal Years 2008-2013 (2007) 20.
27
     Strategic Plan Fiscal Years 2004-2009, 18.


                                                                                                      21 of 63
their value to the organization by demonstrating how their offerings help the agency
achieve its strategic objectives. The GAO Guide for Strategic Training and
Development Efforts emphasizes the importance of aligning training investments with
the agency’s strategic goals. The United States Government Accountability Office
(GAO) says there needs to be a direct link between the training courses and the skills
and competencies identified by the agency for mission accomplishment.28 NRC has
already established this direct link between training and competency development by
stating in its Strategic Plan that the agency, “…will maintain a dynamic program of
training, development, and knowledge transfer to ensure that the NRC acquires and
maintains the competencies needed to implement the strategic plan.”29


The way to ensure accountability and evaluate progress toward achieving results
aligned with the agency’s mission and goals is through effective performance measures.
However, measuring the effectiveness of training and development programs can be
complicated and challenging. As a result, many organizations have limited their
measures of effectiveness to factors they can easily quantify, such as number of
courses offered, number of employees attending training, total training hours, employee
satisfaction with training, and exam results. While all of these input/output metrics are
necessary and valuable, they do not show how training and development contributes to
improved performance, reduced costs, and the ability to accomplish the agency’s
mission.30


In order to measure the real impact of training, agencies need to move beyond data that
merely measures inputs and outputs. They need to develop performance metrics that
show how training and development programs contribute to accomplishing agency
goals and objectives. Outcome based performance measures focus on:




28
   United States, Government Accountability Office, A Guide for Assessing Strategic Training and Development
   Efforts in the Federal Government, March 2004, 13.
29
   Strategic Plan Fiscal Years 2004-2009, 20.
30
     A Guide for Assessing Strategic Training and Development Efforts in the Federal Government, 60.



                                                                                                         22 of 63
      •    How training and development programs contribute to improved organizational
           and programmatic results; often measured through the attainment of
           competencies necessary for the agency to be successful.31

      •    How the investment in training programs is justified based on the outcomes;
           often measured through the identification of expenses associated with all
           components of the training and development processes.32

      •    How individual training courses contribute to performance improvement; often
           measured through course evaluation strategies and tools.


HRTD has identified the need to improve its performance metrics, as stated in the
Training and Development Strategic Plan. “The agency will explore ways to improve
performance measures and metrics focusing on the training and development
programs’ contributions to individual and organizational performance.”33


3.3.2 Current performance metrics fail to provide meaningful insight into how HRTD
           training and development programs align with NRC’s mission and strategic goals
           or demonstrate training efficiency or effectiveness.



HRTD’s current performance metrics focus primarily on attendance, student
satisfaction, and test scores. Current measures reported quarterly in HRTD’s Office
Operating Plan include the following:

      •    Average hours of training per employee.

      •    Percentage of staff completing a minimum of 24 hours of training.

      •    Percentage of staff recording no training activity.



31
     A Guide for Assessing Strategic Training and Development Efforts in the Federal Government, 30.
32
     A Guide for Assessing Strategic Training and Development Efforts in the Federal Government, 71.
33
     Training & Development Strategic Plan, 9.



                                                                                                       23 of 63
       •   Number of training no shows.

       •   Number of course per year cancelled or unable to be scheduled when needed
           due to training infrastructure support problems.

       •   Percent of professional development programs participants, supervisors, and
           senior advisors that responded positively to program evaluations that program
           objectives were met.

       •   Percentage of students that attain a passing score on course exams.

       •   Percentage of attendees that rate training satisfactory or better on student
           evaluation forms.34


HRTD has encountered difficulties accurately collecting and reporting the above
performance data since they have to collect much of it manually. Managers and
supervisors stated that they found training completion information to be inaccurate or
not current in the Human Resources Management System (HRMS) and thus rely on
their own “home-grown” reports to maintain training information. In addition, HRTD
instructors use various manual methods for tracking student satisfaction and exam
scores.


While the metrics listed above provide valuable output measures, they do not effectively
show the actual business impact of the training interventions. HRTD collects, tracks,
and reports limited data to show:

       •   How training courses are helping employees attain competencies. Through
           its Strategic Workforce Planning (SWP) process, NRC has identified the
           competencies/skills necessary for the agency to accomplish its mission, as well
           as anticipated critical gaps in the skills needed for the agency to continue to meet



34
     United States, Nuclear Regulatory Commission, Human Resources Office Operating Plan, Quarterly
     Measurements, 2008 – Quarter 2.


                                                                                                      24 of 63
        its goals. NRC has stated that it relies on two primary methods to fill its critical
        skill gaps: (1) recruiting and hiring and (2) training and development.35


        However, HRTD does not have a method to show it is developing and offering
        training that helps fill critical skills gaps. While HRTD conducts an annual
        training needs assessment to determine which courses should be offered each
        year, the assessment is not linked to the SWP process. HRTD has not
        effectively linked investments in training and development programs to gaps
        identified through SWP. Although employees are required to self report their
        competencies into NRC’s SWP tool, supervisors and managers stated that they
        make limited use of the tool to identify training needs to fill critical skill gaps.


        Further, HRTD does not have the ability to demonstrate how its training
        programs help the agency maintain the identified competencies and fill the critical
        skill gaps. It has not assessed its training courses to determine which, if any,
        identified competencies each course teaches. One advantage associated with
        linking training to competencies is the ability to demonstrate the strategic value of
        training.36



        The Training and Development Strategic Plan states that HRTD will take action
        to “…more comprehensively define competencies and training needs for major
        functions or groups of like positions; and better integrate its training and
        development programs with performance elements and standards, position
        descriptions, training needs surveys, and the strategic workforce planning
        system.”37 However, HRTD has not yet taken the steps to achieve these
        objectives.



35
   United States, Government Accountability Office, Retirements and Anticipated New Reactor Applications will
    Challenge NRC’s Workforce, January 2007, 11.
36
   Davis Dubois and William Rothwell, “Competency-based or a Traditional Approach to Training?” Training &
   Development, April 2004, 44- 56.
37
   Training and Development Strategic Plan, 3.



                                                                                                          25 of 63
       •   How investments in training programs are justified based on the outcomes.
           Although the Training and Development Strategic Plan states that HRTD, “…will
           use budget planning and execution processes and the time and labor system to
           capture and track agency wide expenditures for conducting and attending
           training,”38 HRTD has not established a means to effectively and consistently
           track training costs beyond the cost of contracted courses or external training
           events. Without a full understanding of the cost of internal training, HRTD is
           unable to effectively compare the costs of internal and external resources, or to
           show its programs are providing a return on the agency’s investments in training.

       •   How individual training courses are helping improve performance. While
           HRTD administers an exam at the end of many courses to show learning has
           taken place, it does not conduct other forms of evaluation to show if performance
           is improved. Performance metrics associated with training evaluation strategies
           are addressed in more detail in Section 3.4.


While the performance measures discussed above are not an exhaustive list of possible
training and development metrics, they represent areas that GAO has recognized as
important to showing the effectiveness of training programs. These performance
measures are also widely used by organizations today to show the impact of training
and development on results.39 Using metrics similar to those tracked by other
organizations will allow NRC to more easily compare and benchmark its training and
development programs against others.


HRTD is currently reexamining its performance metrics to better measure training
effectiveness. The implementation of the new LMS, launched in April 2008, has the
potential to aid in the collection of performance data. In the first phase of the LMS
deployment, HRTD focused on course registration, tracking, and scheduling
capabilities. However, the system has extensive capabilities for recording, tracking, and

38
     Training and Development Strategic Plan, 8.
39
     Andrew Paradise, “2007 State of the Industry Report,” American Society for Training and Development, 2007, 6-
     21.


                                                                                                           26 of 63
reporting performance data. One of the benefits of the LMS is that it will be NRC’s
single system of record for training, thus allowing HRTD to leverage its capabilities to
capture training metrics.


3.3.3 HRTD faces challenges collecting and reporting credible, reliable, and consistent
        performance data to demonstrate the effectiveness of its training and
        development program.

In the past, HRTD has encountered obstacles in collecting and reporting accurate
performance data, as mentioned above. Much of the data has been collected manually
and in different systems, e.g., students provide course feedback in hardcopy format
which instructors enter manually into different and independent spreadsheet tracking
forms. Some of the data has been incomplete and/or inaccurate, e.g., employee
training records in the HRMS often provide an incomplete picture of individual training
completions. As a result, data collection, analysis, and reporting have been time
consuming and labor intensive. HRTD has necessarily focused on collecting
performance data that is easily quantifiable and accessible such as attendance,
satisfaction, and exam scores.


Now that HRTD has a more efficient means to collect, track, and report performance
data through the LMS, current performance metrics need to be refined to allow HRTD to
better demonstrate how its programs contribute to agency success. However, the LMS
is a means to an end, not the entire solution. In order for the LMS to aid HRTD in the
collection, analysis, and reporting of meaningful performance metrics, the organization
must:

   •    Choose performance metrics that demonstrate mission alignment, track training
        costs, and demonstrate effectiveness and efficiency.

   •    Evaluate the LMS’ capabilities for collecting performance data in support of the
        new metrics.




                                                                                    27 of 63
The LMS chosen by NRC has extensive capabilities and can assist HRTD in collecting
data in support of the three outcome-based measures discussed above: demonstrating
how training programs contribute to results (linking training to competency
development), justifying training expenditures based on outcomes, and linking training
to performance improvement.


First, the LMS has the ability to link training and competencies, but HRTD does not
currently subscribe to this feature. In order to implement the competency model
capabilities, HRTD would need to assess all of its courses to identify the associated
competencies, evaluate the LMS capabilities for determine if they meet the agency’s
needs, and develop a business case to support the purchase of the capability.


Secondly, the LMS has extensive cost tracking capabilities that will help HRTD
demonstrate the efficiency of its operations. HRTD is able to track some costs with the
currently deployed capabilities, but may have to purchase additional capabilities,
depending on the measures it chooses to track. Typical training cost measures
employed by member organizations of the American Society for Training and
Development (ASTD) include:40

       •   Direct expenditure per employee.

       •   Direct expenditure as a percentage of payroll.

       •   Percent of expenditure for tuition reimbursement.

       •   Cost per learning hour used.

       •   Travel and accommodation costs.

       •   Cost of work time lost during training.

       •   Percentage of learning expenditure for tuition reimbursement.


40
     Paradise, 6-17.



                                                                                     28 of 63
     •    Cost savings realized through outsourcing learning initiatives.

     •    Content development costs.


Finally, the LMS has the ability to collect evaluation data as suggested in Section 3.4 of
this report. Using the LMS for the collection of evaluations at all levels aids in
consistency and efficiency while allowing for increased data collection with minimal
effort.


3.3.4 Without effective performance metrics, HRTD is limited in its ability to
          demonstrate its contribution to NRC’s mission and risks future funding.

While NRC’s Training and Development Program has been well-funded to date,41 the
increasing emphasis on accountability in the Federal Government may make future
funding less certain. NRC invests a significant amount of money and resources in
training and developing employees, but may not be able to measure the business
outcomes and results it is getting for its investment. Without a direct link between
results and investments, training programs can begin to look like an unjustified cost,
resulting in a decline in both support and funding.42 The inability to show measurable
results can result in budget cuts.


With accurate and effective performance measures, on the other hand, organizations
can make better decisions about whether to revise or redesign training programs or
eliminate ineffective programs. Good performance metrics can also be used to make
decisions about future programs including the most effective delivery mechanisms and
barriers to improved performance.43 As the President’s Management Agenda directs,




41
    HRTD’s Deputy Associate Director stated that the Training and Development Program often has excess funds at
   the end of the fiscal year.
42
    Steve Wexler, et al., “Measuring Success: Aligning Learning Success with Business Success,” The e-Learning
    Guild, (October 2007) 204.
43
    A Guide for Assessing Strategic Training and Development Efforts in the Federal Government, 61.



                                                                                                        29 of 63
performance measures can be used to reinforce high performing programs and reform
or end non-performing programs.44


RECOMMENDATIONS:
We recommend that the Executive Director for Operations:

9.        Develop and implement new performance metrics to demonstrate mission
          alignment, effectiveness, and efficiency.
10.       Develop and implement a plan to leverage the capabilities of the LMS for
          collection and reporting of chosen metrics. Specifically, evaluate the competency
          model capabilities to determine if they meet NRC’s needs, including identifying
          competencies, linking courses (or course modules and learning objectives) to
          identified competencies and closing critical skill gaps.
11.       Develop and implement a comprehensive cost tracking capability (including cost
          data for each course) to determine the most economical and efficient method to
          meet NRC’s training needs.



3.4       Evaluation Strategies

A systematic evaluation approach and process allows for continuous improvement
within the training function when aligned with organizational goals. NRC does not use a
systematic evaluation process for continuously improving its training and development
program because it has not:

      •    Developed a strategy for collecting pertinent evaluation data.

      •    Finalized the draft evaluation procedure.

      •    Evaluated the current LMS capability for data collection.




44
     President’s Management Agenda, 29.



                                                                                      30 of 63
Without a strategy that standardizes the training evaluation procedure and metrics, NRC
cannot accurately measure and monitor its achievement of goals.


3.4.1 A systematic evaluation approach and process allows for continuous
           improvement in the learning and development function by enabling data-driven
           decisionmaking.

Agencies are finding it increasingly important to evaluate their training and development
programs and demonstrate how these efforts help develop employees and improve the
agencies’ performance. HRTD has recognized the value of evaluation and includes a
strategy to, “…implement meaningful evaluation tools and performance measures to
assess progress toward achieving results aligned with the agency’s mission and goals”
in the Training and Development Strategic Plan.45


The Training and Development Strategic Plan also states, “…the training organization
will evaluate stakeholder input and feedback mechanisms for training and development
programs to determine whether additional levels of evaluation are necessary and cost-
effective to ensure quality and results. Increased use of higher level evaluations would
require cooperation, input, and resource expenditure from all training stakeholders
including attendees, supervisors, and managers.”46


In the statement above, HRTD is alluding to Kirkpatrick’s Four-Level Evaluation Model47
which it references in the evaluation of NRC training programs. This model is probably
the best-known and most widely used training evaluation methodology. The four levels
measure:

     •   Reaction of students to the training; usually collected through student feedback
         forms (Level 1).



45
     Training and Development Strategic Plan, 8.
46
     Training and Development Strategic Plan, 9.
47
     Donald Kirkpatrick, Evaluating Training Programs (San Francisco: Berrett-Koehler Publishers, Inc, 1994).



                                                                                                                31 of 63
     •   Amount of learning that took place; often determined by testing students (Level 2).

     •   Change in performance; often determined by supervisor input (Level 3).

     •   Impact on the organization; determined by various measures such as increase in
         sales or reduction in errors (Level 4).


Jack Phillips Return on Investment (ROI) methodology has often been combined with
Kirkpatrick’s model to produce a fifth level of evaluation.48 Level 5 measures if the
organization is reaping a value from the training program that is equal to or greater than
their investment costs. Additional information about these levels can be found in
Appendix A.4.


In the Federal Government’s Guide for Assessing Strategic Training and Development
Efforts in the Federal Government, the GAO notes that not all programs necessitate, or
are appropriate for, higher levels of evaluation. The GAO uses the figure below to
suggest the percentages of total courses that should be evaluated at each level. Best-
practice organizations usually target 100 percent of all training programs to be
evaluated at the reaction level (Level 1) and conclude with targets of 5 to 10 percent of
training programs to be evaluated at the return on investment level (Level 5).49

                                                         Recommended Percentage of
                  Evaluation Level                   Training Programs To be Measured
                                                                    at Each Level
            Level 1 - reaction                              100% of training programs
            Level 2 - learning                               60% of training programs
            Level 3 - performance                            30% of training programs
            Level 4 - impact                                 10% of training programs
            Level 5 - return on investment                    5% of training programs


48
   Jack Phillips, Return on Investment in Training and Performance Improvement Programs. (Houston: Gulf
   Publishing Company, Houston, 1997).
49
   A Guide for Assessing Strategic Training and Development Efforts in the Federal Government, 63.



                                                                                                          32 of 63
                                Figure 3.4.1.1 Evaluation Targets for Training Programs


Nearly 96 percent of the 2004 Training Magazine Top 100 companies measure some
training effectiveness through Level 4 and 75 percent of the companies measure
through Level 5.50 A research study by the eLearning Guild found no significant
relationship between the size of a training budget and usage of Levels 3 and 4
evaluations. However, the study did find a significant relationship between the need for
a knowledgeable and skilled work force and usage of Levels 3 and 4. The findings also
show that as this factor increases in importance for an organization, so too does its
usage of Kirkpatrick Levels 3 and 4.51


3.4.2 HRTD has not implemented a systematic evaluation strategy or procedure to
          evaluate the impact of training and development programs.

Although HRTD uses parts of the Kirkpatrick model, the organization has not fully
developed and implemented an evaluation strategy or procedure at all levels. NRC
currently collects Level 1 data with its student feedback form for all courses delivered by
HRTD or its contractors. However, HRTD uses several different forms to collect student
feedback.52 Level 2 evaluations, in the form of performance-based tests, are being
conducted for some courses, most often for the technical courses. HRTD has
attempted to collect Level 3 evaluation data from supervisors in the past to determine if
employee performance improved following a course. Concerns about the low level of
participation from supervisors and managers led to questions about the data’s validity
and usefulness. Level 4 and 5 evaluations have not been conducted systematically
although information is gathered from division directors informally about whether
training has met their needs and provided value for the money.




50
     Tammy Galvin, "The 2004 Top 100," Training Magazine 01 April 2004, 32.
51
   Joe Pulichino, “Usage and Value of Kirkpatrick’s Four Levels of Training Evaluation Research Report,” The
   eLearning Guild, August 11, 2006, 27.
52
   The OIG recommended in OIG-07-A-05, “Audit of NRC’s Technical Training Facility,” (January 2007) that HRTD
   develop one consistent form to evaluate all training programs.


                                                                                                       33 of 63
Most Level 1 evaluation data is collected manually at present. Some instructors track
student feedback data, but the data is kept in multiple spreadsheet programs. Most
stated that they read portions of the form and then file them away. In some instances,
the form is reviewed by a supervisor who identifies any needed changes. The only
information from the student feedback form that HRTD tracks consistently across the
PDC and TTC is the overall satisfaction rating that students assign to the courses.
HRTD has refrained from collecting additional types of data and conducting data
analysis because it viewed the process as time consuming and resource intensive.
HRTD has been unsure of the benefits that could be gained and hesitant to dedicate
resources to a systematic evaluation strategy addressing multiple levels.


HRTD is in the process of drafting a new procedure, Operating Procedure 410, to
address its evaluation process. The draft procedure currently outlines the processes
for:

       •   Reviewing, summarizing and reporting student feedback data (Level 1).

       •   Evaluating the validity of student examinations (Level 2).

       •   Evaluating instructors in the classroom.


While Operating Procedure 410 addresses the step-by-step procedure for collecting
Level 1 and Level 2 data, it does not provide an overall strategy for collecting
meaningful evaluation data that shows how training programs are contributing to
improved performance and accomplishing the agency’s mission.


3.4.3 HRTD’s evaluation efforts are hampered by the lack of a defined evaluation
           strategy, evaluation procedure, and automated data collection methods.



NRC does not use a systematic evaluation procedure partially because it has not
finalized HRTD Operating Procedure 410. The current draft of the procedure includes
methods for evaluations at Level 1 (student feedback forms) and Level 2 (course


                                                                                    34 of 63
examinations), but does not address any higher levels of evaluation as defined by
Kirkpatrick’s model.


Level 1 evaluation data (students’ reactions) can be useful in determining which
instructors, training methods, aids, and resources are popular and, therefore, likely to
affect trainee motivation and participation. However, data from student feedback forms
does not indicate whether the training program contributed to achieving the goals and
objectives of the organization. It cannot show if participants successfully transferred
knowledge gained from the course to their on-the-job performance. Involving
stakeholders, who are in a position to observe behavioral or organizational changes,
provides a much better indicator of the impact of training. Potential sources of data
about performance improvement opportunities are the qualification boards and focus
groups with supervisors and managers.


HRTD has not defined a strategy for collecting evaluation data at levels beyond 1 and 2.
NRC would benefit from developing an evaluation strategy that describes the
organizational goals that must be supported and the types of evaluation that will be
implemented to ensure that these goals are being met. Aligning the HRTD evaluation
strategy with organizational goals will allow NRC to determine what activities have the
most significant business impact and should therefore receive more resources and
which do not have business impact and should therefore receive fewer resources or be
adjusted to increase their impact. NRC will also gain important insights about how well
their new employees are transferring knowledge gained from the courses to their on-
the-job performance and whether improvements are necessary.


While past data collection methods have been fragmented, the implementation of the
new LMS provides HRTD with the opportunity to automate much of the data collection,
thus reducing the burden placed on staff to manually collect and analyze data.
Although the LMS is capable of collecting large amounts and varying kinds of data,
these additional capabilities can be costly. The selection of capabilities should be




                                                                                    35 of 63
guided by an evaluation strategy that defines the type of data HRTD needs to
demonstrate how its programs contribute to the success of NRC.


3.4.4 Without a strategy that standardizes the training evaluation procedure and
          metrics, NRC can not accurately measure and monitor its achievement of goals.



The need for evaluation at all levels is to provide a holistic picture of how training
contributes to organizational objectives. GAO acknowledges that agencies are finding it
increasingly important to demonstrate how their training and development efforts are
helping develop employees and improve performance. As the Federal Government
moves toward linking resources with results, they are focusing on training and
development efforts along with other agency programs.53


Without an evaluation strategy and a means to collect meaningful data, HRTD is not
able to effectively demonstrate how training and development programs contribute to
NRC’s success.


RECOMMENDATIONS:
We recommend that the Executive Director for Operations:

12.      Finalize Operating Procedure 410 including a new standardized student feedback
         form.
13.      Develop an evaluation strategy plan that defines the data HRTD needs to collect
         at varying levels to demonstrate the impact of its programs on the agency.
14.      Evaluate the capability for collecting evaluation data via the Learning Management
         System.
         a. If the Learning Management System’s capabilities meet the agency’s needs,
              develop a business case for purchase and deployment of additional
              capabilities.


53
     A Guide for Assessing Strategic Training and Development Efforts in the Federal Government, 8.



                                                                                                      36 of 63
        b. If the Learning Management System’s capabilities do not meet the agency’s
              needs, develop a plan for using alternative technologies to collect and analyze
              evaluation data.


3.5      Alternative Delivery Mechanisms for Training

NRC is facing workforce challenges that make e-learning a viable alternative to the
traditional classroom, which is currently used for the majority of courses. HRTD has
recognized the benefit that new training methodologies could bring to the agency and
has deployed a new LMS to enable e-learning. However, HRTD has not developed an
e-learning strategy or implementation plan to maximize the benefits of this investment
and ensure it is helping HRTD meet the agency’s most pressing training needs. HRTD
staff is strained to meet all of the training needs in the traditional classroom with its
current staff and facility resources, but additional funding to support e-learning initiatives
may be difficult to obtain without a defined strategy and implementation plan.


3.5.1 NRC is facing challenges that make e-learning a viable alternative to the
          traditional classroom.

GAO has estimated that approximately one-third of NRC’s highly skilled employees will
be eligible to retire by 2010. At the same time, NRC’s workforce is expanding to handle
the anticipated increase in applications for new nuclear power reactors.54 These factors
along with the development of new technologies, the need to train Agreement State
personnel55 and other challenges outlined previously in this report have increased the
need for training at NRC. At the same time, the agency is placing a greater emphasis
on telecommuting as a retention strategy, is hiring an increasingly younger population,
and has a significant number of employees located at offsite locations.56 Organizations




54
     Retirements and Anticipated New Reactor Applications will Challenge NRC’s Workforce, 31.
55
   In 2007, NRC made their training programs available at no cost to personnel in the 34 Agreement States. NRC
   pays for all travel and per diem costs for Agreement State personnel to attend NRC training programs.
56
   FY 2004-2009 Strategic Human Capital and Workforce Restructuring Plan, 1-7.



                                                                                                         37 of 63
facing similar challenges have looked to innovative training delivery methods to
supplement their classroom training.


In the Training and Development Strategic Plan, HRTD has identified the need to,
“…evaluate and apply current and emerging learning tools and methodologies, as
appropriate, to reduce time and travel costs for attending classroom training.”57 They
have noted that other training delivery mechanisms such as self-study, computer-based
programs, blended learning, or on-the-job training may meet employee needs more
conveniently, efficiently, and effectively. The NRC 2004-2009 Strategic Human Capital
and Workforce Restructuring Plan also addresses the need to “…develop and
implement e-learning strategies to provide effective training at lower cost.”58


e-Learning has been defined as, “…the use of internet technologies to deliver a broad
array of solutions that enhances knowledge and performance.”59 It has become a
mainstream delivery method as virtual classrooms and online self-study courses now
account for nearly one-third of all formal training hours consumed by students. While
approximately 65 percent of formal training is still delivered in the classroom by an
instructor, this number has decreased significantly over the past ten years.60 ASTD has
observed a higher ratio of employees to training staff than in previous years because of
efficiencies gained from technology-based learning solutions.61


Research has shown that successful e-learning implementations are guided by an
effective e-learning strategy that contributes to the overall vision and mission of the
organization. The primary component of an e-learning strategy is a set of goals or
objectives that need to be achieved with e-learning. These goals and objectives need




57
     Training and Development Strategic Plan, 5-7.
58
     FY 2004-2009 Strategic Human Capital and Workforce Restructuring Plan, 11.
59
   Marc Rosenberg. e-Learning: Strategies for Delivering Knowledge in the Digital Age. (New York: McGraw-Hill,
   2001), 28.
60
   Karen O’Leonard. “The Corporate Learning Factbook ® 2008,” Bersin & Associates, January 2008, 10.
61
     Paradise, 4.



                                                                                                          38 of 63
to be aligned with the mission and vision of the organization.62 When e-learning
initiatives are not closely aligned, they can lead to inappropriate, or even damaging,
results.63 Alignment ensures e-learning is linked to the attainment of organizational
objectives and prevents the implementation of solutions for problems that don’t even
exist. According to the eLearning Guild, a strategy must accompany the tactics of
implementing e-learning to avoid a lot of wasted activity that yields little value to the
organization, misses opportunities, and depletes goodwill.64


While the e-learning strategy addresses the goals the organization would like to realize
in 3-5 years, an implementation plan provides the tactical steps the organization will
take within the next 12 months to achieve the long-term e-learning goals. In other
words, the strategy defines “what” and the implementation plan spells out “how.” An
implementation plan also includes associated milestones and measures of success. e-
Learning implementation plans focus on the people, process, and technology issues
that must be addressed for a successful execution. Appendix A.3 includes a list of
considerations in each of these areas for possible inclusion in an e-learning
implementation plan.


3.5.2 Although HRTD has deployed a new Learning Management System and some
        courses have been developed for online delivery, HRTD has not developed a
        complete strategy or implementation plan for e-learning.

HRTD currently offers approximately 30 online courses, and it recently deployed a new
LMS. The initial LMS implementation was focused on centralizing and standardizing
enrollment and tracking of students along with classroom and resource management.
HRTD has noted in its Strategic Plan that it intends to implement additional functions in
the LMS including the incorporation of Individual Development Plans (IDPs) and
qualification templates; increased planning, tracking and reporting tools for employees

62
   Jennifer De Vries. “e-Learning Strategy: A Framework for Success,” ASTD’s Learning Circuits, August, 2005.
   http://www.learningcircuits.org/2005/aug2005/devries.htm.
63
   Ryan Watkins and Roger Kaufman, “Strategic Planning for Distance Education,” Handbook of American Distance
   Education, ed. Mark Moore (Mahwah, NJ: Lawrence Erlbaum Associates, 2003), 509.
64
   Brandon, 3.



                                                                                                      39 of 63
and supervisors; and access to online training opportunities.65 HRTD staff members
have suggested that the LMS can also be used to accomplish other objectives in the
Training and Development Strategic Plan, including the linking of training programs to
job competencies/critical skills and the Strategic Workforce Planning tool. Many of
HRTD’s plans for the LMS are in line with GAO’s recommendation that training and
development organizations should have a comprehensive LMS that can “…track the
delivery of training, as well as, accounting, financial, and performance reporting systems
that produce credible, reliable and consistent data on training and development
programs.”66


Like many organizations new to e-learning, HRTD has focused much of its efforts on the
technology to enable alternative delivery means. HRTD’s e-Learning Plan, developed
in 2005, focuses mainly on the tactical issues of implementing technology and deploying
courses. While the HRTD Training and Development Strategic Plan shows linkages to
the agency’s vision and mission, e-learning needs to be fully integrated in order to show
the same linkages. An e-learning strategy would help to align learning investments
directly to business results while providing metrics to measure the value of those
learning investments.


While the current e-Learning Plan addresses the initial phases of LMS deployment and
selection of commercial off-the-shelf (COTS) courses, it does not address the ongoing
implementation of the e-learning strategy to include the additional capabilities
mentioned in the Training and Development Strategic Plan. The deployment of the
LMS provides HRTD with the foundational building block that will allow it to develop a
robust e-learning program, but it does not have a clearly defined path for a full e-
learning implementation that helps achieve its strategic learning goals.


The plan includes some of the elements of an effective implementation plan listed in
Appendix A.1 (e.g., the need for a change management and communications plan,


65
     Training and Development Strategic Plan, 5.
66
     A Guide for Assessing Strategic Training and Development Efforts in the Federal Government, 71.



                                                                                                       40 of 63
need for user support), but the plan is incomplete and does not contain specific
strategies and current milestones for implementation. It does not include a governance
plan although some staff members suggested that input from an advisory board has
been very beneficial in the past and they would like to see such a board reinstituted. In
addition, some of the implementation strategies included in the plan have not been very
effective. For example, several of the communication methods described in the plan
was used in conjunction with the recent roll-out of the LMS, but staff members stated
the marketing and communications plan was not completely effective and resulted in
initial difficulties in using the system.


In summary, the current NRC e-Learning Plan contains elements of both an e-learning
strategy and an implementation plan, but neither the strategy nor the plan are complete.
HRTD staff members have stated that the Plan needs to be updated since the roll-out of
the LMS because the milestones are three years old and are no longer applicable.
When the plan is updated, the HRTD staff should take the opportunity to better define
their e-learning strategy and implementation plan.


3.5.3      HRTD staff is strained to meet all of NRC’s training needs in the traditional
           classroom with its current staff and facility resources, but additional funding to
           support e-learning initiatives may be difficult to support without a defined strategy
           and implementation plan.

The majority of HRTD courses are currently delivered in the classroom by an instructor.
According to The Sloan Consortium, approximately 34 percent of all graduate school
courses were offered online in 2006 representing a 20 percent increase since 2002. In
addition, almost 70 percent of the postsecondary institutions included in the study
agreed that student demand for online learning is growing.67 HRTD management, as
well as instructors at both PDC and TTC, stated that they do not have enough




67
     I. Elaine Allen and Jeff Seaman, “Online Nation: Five Years of Growth in Online Learning,” The Sloan Consortium
     and Babson Survey Research Group, (October 2007), 10-15.


                                                                                                            41 of 63
instructors and classrooms to meet current training needs and are concerned about how
they are going to meet the increasing needs.


The increasing need for training may not be a short-term surge, but may continue
beyond NRC’s current step-up in hiring to handle the new licensing requirements.
While NRC has benefited from low turnover and a high degree of loyalty in its aging
workforce, the agency may find a different mindset among the younger employees they
are now recruiting. Continuing turnover in the employee population will necessitate a
continuing need for training at higher volumes than HRTD has historically experienced.


3.5.4 Additional funding to support e-learning initiatives may be difficult to obtain
          without a defined strategy and implementation plan.

While NRC has an increasing need to explore alternative methods for delivering
training, HRTD may find it difficult to get and keep support and funding for e-learning
initiatives if they cannot clearly link these initiatives to the strategic goals of the agency
and they do not have a well-defined roadmap for implementing the program.68


RECOMMENDATIONS:
We recommend that the Executive Director for Operations:

15.      Develop an e-learning strategy that establishes a broad, fundamental connection
         between e-learning and organizational mission, strategy, business objectives, and
         performance improvement.
16.      Develop an implementation plan for e-learning that includes, at a minimum:
         a. An assessment of NRC’s baseline technology.
         b. A plan for roll-out, implementation, maintenance, and ongoing evaluation of
               additional Learning Management Systems capabilities. The implementation
               plan should include a cost/benefit analysis of the available LMS features and
               how they can support NRC’s business needs.


68
     Brandon, 7.



                                                                                        42 of 63
3.6      Staff Skill Sets

Organizations that have implemented e-learning solutions have found the skills needed
to develop technology-enabled learning are very different from those needed for
classroom instruction. Staff in HRTD noted that there are limited skills and resources
for the development and deployment of e-learning among the current staff. If NRC
plans to implement more e-learning solutions, HRTD will need to find ways to close the
e-learning skill gaps—either through training, hiring, or outsourcing. Attempting to
develop effective e-learning programs without the necessary skills can lead to
frustration for the staff and ineffective learning opportunities for employees.


3.6.1 The skills and roles needed to implement e-learning are very different from the
          skills and roles used for classroom instruction.

In 1995, Thach and Murphy identified thirteen roles necessary for the design and
delivery of e-learning.69 While their work is still relevant, the field has evolved since
their study thirteen years ago. The table below shows the thirteen roles identified by
Thach and Murphy along with updates to reflect more typical e-learning project roles of
today.

                     Role                                        Description
                                         Work with instructors and/or subject matter
                                         experts to design courses, revise existing courses
          Instructional
                                         to fit distance learning environment. Must be
          Designer
                                         familiar with designing for e-learning standards
                                         and regulations.
                                         Work closely with instructional designer to select
                                         best technology solution for learning objectives,
                                         assess, and implement new technologies as
          Programmer
                                         needed to support e-learning, and ensure
                                         compliance with e-learning standards and
                                         regulations.


69
     Elizabeth C.Thach and Karen L. Murphy. “Competencies for Distance Education Professionals,” Educational
     Technology Research and Development March 1995: 57-71.


                                                                                                         43 of 63
                                     Provide content matter expertise to design team,
      Subject Matter                 review content to ensure integrity, and provide
      Expert                         content updates to design team as necessary to
                                     keep course content current.
                                     Design attractive, clear layout, and ensure
      Graphic Designer
                                     materials facilitate learning.
                                     Manage staff and operations, monitor timelines,
      Project Manager
                                     and ensure quality.
                                     Facilitates course delivery, monitors and
      Instructor (for
                                     evaluates learner performance. In some
      certain types of
                                     instances, the instructor may also serve as
      online courses)
                                     Subject Matter Expert.
                                     Advise in selection of distance learning
                                     technology, ensure reliability of technology, and
      Systems
                                     assess future changes in technology. Primary
      Administrator
                                     interface with IT department to ensure e-learning
                                     technology operates within the enterprise network.
                                     Keep equipment in running condition, respond to
      Technician/Help
                                     users’ questions and problems, and assist
      Desk Staff
                                     instructors with technical delivery of courses.
                                     Assist students in learning at remote sites,
      Site Facilitator               distribute/collect materials/assignments, proctor
                                     tests.
                                     Register students, communicate course
      Support Staff                  schedule/descriptions, and coordinate support
                                     services.
                                     Edit course content for style, clarity, grammar, and
      Editor
                                     structure. Must be skilled in web writing styles.
                          Collect and organize the knowledge assets of the
      Librarian/Knowledge organization; provide means for students to find
      Management          and use these knowledge assets. May also assist
                          with copyright and digital rights issues.
                                     Provide tools and evaluation instruments, monitor
      Evaluation
                                     program success/problems, consult instructor
      Specialist
                                     about evaluation.
           Table 3.6.1.1 Summary of e-learning roles adapted from Thach & Murphy (1995: p. 67-69).


While some of these roles are primary in an e-learning project, others play a supporting
role. Using these roles as a guideline, e-learning leaders need to assess the current



                                                                                                     44 of 63
skills of their training professionals to identify any gaps and then develop a strategy for
closing those gaps—through training, hiring, or outsourcing.70


Having the right internal resources with the right skills and experience is vital to a
successful e-learning implementation.71 A recent Bersin Report notes that
organizations once heavily staffed with instructors are now hiring higher proportions of
content developers and technology specialists to facilitate their online learning
strategies. They have found that these roles come at a lower cost than a senior trainer
or instructor.72 Bersin and Associates have also noted that highly effective training
organizations are directing more staff resources toward technology, analytics and
measurement, and content development for e-learning and fewer resources to
administration and content development for instructor-led training.73


3.6.2 While the HRTD staff has successfully designed and delivered classroom
          instruction for many years, few instructors have skills and experience in the
          design, development, and delivery of e-learning programs.

Training programs offered by HRTD are developed and delivered by HRTD staff or by
contractors. In general, the training staff at the TTC is composed of technical experts in
the fields of health physics, reactor technologies, or other nuclear related areas. These
technical experts are responsible for designing and delivering training and may, in some
instances, oversee the design and delivery of training by contracted staff. The majority
of the training staff at the PDC generally act as project managers, overseeing the
design and delivery of courses by contractors.74 Some have received training in the




70
   Gustavo Prestera and Leslie Moller. “Organizational Alignment Supporting Distance Education in Post-secondary
   Institutions,” Online Journal of Distance Learning Administration, Winter 2001,
   http://www.westga.edu/~distance/ojdla/winter44/prestera44.html.
71
   Lori Mortimer. “e-Learning 101: The Devil is in the Details,” ASTD Learning Circuits. December, 2001.
72
     O’Leonard, 9.
73
   Bersin & Associates, The High Impact Learning Organization: What Works in the Management, Operations and
   Governance of Corporate Training, June 2005, 85.
74
   These statements are general observations and do not describe the skill sets of all HRTD staff members, for
   example, some PDC staff members, particularly in the new reactor technology area, are also technical experts.


                                                                                                          45 of 63
Systems Approach to Training (SAT) process in their previous employment.75 A few
HRTD staff members have degrees in education-related fields such as educational
psychology and instructional design. Staff members at TTC and PDC stated that few of
them have skills or experience related to the design, development, and delivery of e-
learning programs. The majority of the online courses currently available through the
LMS were developed by contractors or by HRTD staff using automated authoring tools.
These courses have varying levels of interactivity—ranging from “page turners” to
limited interactivity in the form of online tests.


3.6.3 HRTD needs to identify the skills necessary to implement their chosen e-learning
           strategy, assess the skills of the current staff, and develop a plan to close the
           skill gap.

NRC has an established strategic workforce planning process in place to identify critical
skills gaps in the employee population. The same process may be useful in helping
HRTD assess the skills needed to implement e-learning, assess the current availability
of those skills, and develop a plan for closing the skill gaps. Gap closure tactics may
include one or more of the following:

      •    Train current staff to attain the necessary skills - develop a training plan to close
           the skill gaps and identify appropriate sources for training the staff.

      •    Hire the necessary skills - revise or develop appropriate job descriptions.

      •    Outsource the development of e-learning solutions - revise current statement of
           work templates to ensure the contracted team includes personnel with the
           requisite skills.


While many organizations decide to outsource their e-learning development or purchase
off-the-shelf learning products in the early stages, most transition to building their own



75
     By their own assessment, staff members have had varying levels of training and experience in use of the SAT
     process.


                                                                                                            46 of 63
learning products as their learning strategies evolve and demands can no longer be met
with packaged solutions.76


3.6.4 Attempting to develop effective e-learning programs without the necessary skills
           can lead to frustration for the staff and ineffective learning opportunities for
           employees.

Viewing the implementation of e-learning as merely an extension of existing classroom
learning can lead to frustration, wasted time and ineffective learning products. Building
on current strengths and finding ways to supplement weaknesses is the suggested way
to build a highly functional team that can develop the appropriate learning solutions to
respond to business needs.


RECOMMENDATIONS:
We recommend that the Executive Director for Operations:

17.      Develop a process similar to the Strategic Workforce Planning Process to:
          a. Determine the e-learning skill sets necessary to meet NRC’s business needs;
          b. Assess the current staff to determine the availability of the needed skills; and
          c.   Develop a plan to close any identified gaps—either through training, hiring or
               outsourcing.


 4. Consolidated List of Recommendations
We recommend that the Executive Director for Operations:

1.       Review the current course files to identify gaps in necessary documentation.
2.       Develop a plan and timeline for completing any missing course documentation.
3.       Complete HRTD Operating Procedure 404 – Training Material Control to include a
         standard process for version control, tracking changes and assigning
         accountability for changes.



76
     O’Leonard, 42.



                                                                                              47 of 63
4.    Develop a plan to centralize course materials in one location, preferably a central
      repository on a shared server.
5.    Develop a lifecycle maintenance procedure for periodically reviewing courses to
      ensure the learning objectives are still valid, the delivery mechanism is still the
      most effective, or the course is still meeting stakeholder needs.
6.    Form a working group of select representatives from the program offices, regional
      offices, and HRTD to conduct a thorough review of the training calendar including
      location and frequency of courses, travel costs, and opportunities for efficiencies in
      course sequencing (i.e., course bundling). The group should identify problems
      and develop mutually agreed-upon solutions within the constraints of contractual
      agreements, budgets and resources.
7.    Within contractual limitations, identify and schedule courses at the same time each
      year so employees can anticipate the availability of courses. Communicate these
      courses and dates widely to make sure employees, supervisors, training
      coordinators, and managers are aware of the annual schedule.
8.    Before implementing the enforcement of course pre-requisites in the Learning
      Management System:
      a. Determine the impact on employees’ ability to take all required training within
           the allotted timeframe.
      b. Communicate the change to NRC personnel in advance and allow
           opportunities for feedback.
9.    Develop and implement new performance metrics to demonstrate mission
      alignment, effectiveness, and efficiency.
10.   Develop and implement a plan to leverage the capabilities of the LMS for
      collection and reporting of chosen metrics. Specifically, evaluate the competency
      model capabilities to determine if they meet NRC’s needs, including identifying
      competencies; linking courses (or course modules and learning objectives) to
      identified competencies and closing critical skill gaps.
11.   Develop and implement a comprehensive cost tracking capability (including cost
      data for each course) to determine the most economical and efficient method to
      meet NRC’s training needs.



                                                                                      48 of 63
12.   Finalize Operating Procedure 410 including a new standardized student feedback
      form.
13.   Develop an evaluation strategy plan that defines the data HRTD needs to collect
      at varying levels to demonstrate the impact of its programs on the agency.
14.   Evaluate the capability for collecting evaluation data via the Learning Management
      System.
      a. If the Learning Management System’s capabilities meet the agency’s needs,
           develop a business case for purchase and deployment of additional
           capabilities.
      b. If the Learning Management System’s capabilities do not meet the agency’s
           needs, develop a plan for using alternative technologies to collect and analyze
           evaluation data.
15.   Develop an e-learning strategy that establishes a broad, fundamental connection
      between e-learning and organizational mission, strategy, business objectives and
      performance improvement.
16.   Develop an implementation plan for e-learning that includes, at a minimum:
      a.   An assessment of NRC’s baseline technology.
      b.   A plan for roll-out, implementation, maintenance and ongoing evaluation of
           additional Learning Management Systems capabilities. The implementation
           plan should include a cost/benefit analysis of the available LMS features and
           how they can support NRC’s business needs.
17.   Develop a process similar to the Strategic Workforce Planning Process to:
      a. Determine the e-learning skill sets necessary to meet NRC’s business needs;
      b. Assess the current staff to determine the availability of the needed skills; and
      c.   Develop a plan to close any identified gaps—either through training, hiring or
           outsourcing.




                                                                                   49 of 63
 5. Appendices
A.1 Scope and Methodology

The scope was defined by the Office of the Inspector General in the Statement of Work
and included nine factors for evaluation:


1. Determine if the agency has a formal process to ensure that changes in Federal
   regulations are promptly incorporated in training and development efforts.
2. Review how the agency identifies the appropriate level of investment to provide for
   training and development efforts and prioritize funding so that the most important
   training needs are addressed first.
3. Determine how the agency tracks:
   a. the cost and delivery of its training and development programs, and
   b. the number of students trained.
4. Review the process the agency uses to determine whether to design training and
   development programs in-house or obtain these services from contractors or other
   external sources.
5. Determine the effectiveness of agency coordination with designated technical
   experts during reviews of in-house courses to assess and revise both course content
   and training materials.
6. Determine what performance data the agency uses to evaluate the overall
   effectiveness of training and development activities to determine whether intended
   short and long-range program results are being obtained and whether adjustments
   are necessary.
7. Evaluate the agency process to ensure that offered training correctly matches staff
   needs and is available when needed.
8. Determine how the agency incorporates evaluation feedback into the planning,
   design, and implementation of its training and development efforts. Determine
   whether this feedback includes:
   a. the participant’s perception of course value,



                                                                                  50 of 63
   b. the view of the participant’s supervisor as to whether individual performance
        improved, and
   c.   management’s opinion of whether the overall training and development program
        is meeting short and long-range strategic program needs.
9. Determine whether the agency compares its training methods, or outcomes with
   those of other Federal agencies to identify innovative approaches or lessons
   learned.


The Booz Allen Hamilton evaluation team did not note any significant findings for factors 5
and 9 above. Factors 2 and 4 are addressed indirectly in Section 3.3 since improved
performance metrics including cost data will help HRTD make more informed decisions about
prioritizing training investments and using internal or external resources to develop and
deliver training. The other factors are addressed in Section 3.


While specific training, development, and knowledge management responsibilities are
shared among the regional offices, program offices and HRTD, this report focuses on
training programs provided by HRTD.


The methodology for this evaluation was designed to obtain sufficient, appropriate
evidence to address the nine evaluation factors, reduce risk to an acceptable level, and
provide reasonable assurance that the evidence was sufficient and appropriate to
support the findings and conclusions.


In defining the methodology, the evaluation team employed a three-phased approach
(See Figure A.1.1) to ensure the program met the agency’s goals of enhancing
individual performance, identifying and meeting training needs, optimizing training
resources, and encouraging continuous improvement and organizational performance.
Each phase included critical steps and activities to ensure that a complete and thorough
evaluation of the training program was completed.




                                                                                   51 of 63
       Phase One                          Phase Two                         Phase Three

                                             Data                                 Report
        Planning                          Gathering                             Writing and
                                         and Analysis
                                                                                Response


    Main Phase Tasks                  Main Phase Tasks                    Main Phase Tasks
     Review                           Review Training                    Develop and Deliver
      Documentation                     Program Based on                    Draft Report
     Develop List of                   SOW Tasks                          Receive Comments
      Criteria                         Complete Site Visits                Report
     Develop Data                     Analyze Captured                   Update Draft Report
      Collection Plan                   Data                                Based on Review
     Complete Scheduling              Create Preliminary                 Deliver Final Report
      and Logistics                     Draft of Results                   Attend Results
                                                                            Meeting
                        Figure A.1.1: Training Program Evaluation Methodology



Phase 1 - Planning Phase: The evaluation team reviewed the recommended NRC
documents along with other materials to obtain a solid understanding of NRC and
Federal Government training and development evaluation protocols. Based on the
initial review, the team developed criteria for measuring each factor listed in the
Statement of Work (SOW), along with an evaluation protocol, a data collection plan
and a Standard Operating Procedure (SOP) for the conduct of site visits. During this
phase of the project, the evaluation team regularly communicated with NRC OIG
personnel to ensure our evaluation methodology met the needs of the agency and to
complete scheduling and logistics for the site visits.


Phase 2 - Data Gathering and Analysis: During this data gathering phase, the
evaluation team worked in cooperation with the Contracting Officer’s Technical
Representative (COTR) and NRC representatives to conduct site visits. During the
course of these visits, the evaluation team interviewed knowledgeable staff
members at Region I, Region II, the TTC, and the PDC. The interviewees
represented a broad range of perspectives including employees who have taken
training at NRC, supervisors/managers of employees who have taken training,
regional executives, HRTD staff members, and HR management. Each site visit
began with an entrance conference to introduce our team and its purpose. An exit



                                                                                                   52 of 63
conference at the end of each visit allowed us to present and discuss initial
observations, as well as allow evaluators to confirm information, ask questions, and
provide additional data. Following each site visit, the team analyzed and
synthesized the data to develop findings and trends. The data was presented for
NRC review after each site in order to address issues and questions early.


Phase 3 – Report Writing and Response: The final phase was the development,
review, and delivery of the findings and recommendation report which addressed all
requirements included in Section 4 of the SOW. A preliminary report was developed
for NRC review and a final report incorporated appropriate NRC comments.
Evaluation team members attended the results meeting with NRC to review the
findings and recommendations.


Booz Allen Hamilton has developed a tool called the Learning Organization
Diagnostic to help learning and development leadership build a learning strategy by
identifying strengths, weaknesses, and areas of emphasis (to improve Current State
or envision Future State) across four Levers that are essential to successful training
operations:
   1. Technology Pervasiveness - focuses on the extent to which learning and
      performance technologies are considered and deployed.
   2. Programs and Content Lifecycle - analyzes all of the curricula and programs
      across the organization. (Represents the core of training and development,
      and what most people will recall satisfactorily or unsatisfactorily about training
      operations.)
   3. Operations and Processes - defines the administrative and managerial
      challenges in running training like a business.
   4. Business Alignment - identifies the methods used to actively engage
      leadership in executing strategy and realizing success. (Area where most
      training and development departments fail to realize significant impact.)




                                                                                  53 of 63
These four Levers are further broken down into elements and sub-elements that drive to
the level necessary to inform and action real change.


Similar to a Balanced Scorecard construct, the levers of the Learning Organization
Diagnostic represent a holistic view of training operations and address opportunities for
improvement. The Balanced Scorecard, developed by Robert Kaplan and David
Norton, is used by many organizations to identify and manage achievement of long-term
strategic goals beyond solely financial indices.77 In fact, the Learning Organization
Framework is aligned towards the specific drivers of the business of training and directly
supports the Learning and Growth quadrant of a typical Balanced Scorecard. Through
consistently monitoring achievement in each Lever, an organization can strike an
eventual balance of capabilities.


The nine factors identified in the NRC Statement of Work were similar to many of the
elements and sub-elements included in the Learning Organizational Diagnostic. Figure
A.1.2 below illustrates how the nine evaluation factors align to the four levers in the
Learning Organization Diagnostic.




77
     The Balanced Scorecard identifies goals in the areas of Financial, Customer, Internal Processes, and Learning
     and Growth or Innovation.


                                                                                                             54 of 63
          Technical Pervasiveness                        Operations and Processes
     None                                               4.3 – Review
                                                               Review howhow the 4.3agency
                                                                                   agency identifies thethe
                                                                                             identifies
                                                         appropriate level of investment to provide for training
                                                         and development efforts and prioritize funding so
                                                         that the most important training needs are
                                                         addressed first.
                                                         4.4 – Determine how the agency tracks the cost and
                                                         delivery of its training and development programs,
                                                         and the number of students trained.
                                                         4.5 – Review the process the agency uses to
                                                         determine whether to design training and
                                                         development programs in--house
                                                                                      house or
                                                                                            or obtain
                                                                                                obtain these
                                                                                                        these
                                                         services from contractors or other …
                                                                                        others.
                                                         4.10 – Determine whether the agency compares its
                                                         training methods, or outcomes with those of other
                                                         Federal agencies to identify innovative approaches
                                                         or lessons learned.

               Content Life Cycle                        Business/Organization Alignment
    4.2 – Determine if the agency                        4.7 – Determine what performance data the agency
    has a formal process to ensure that changes in       uses to evaluate the overall effectiveness of training
    Federal regulations are promptly incorporated in     and development activities to determine whether
    training and development efforts.                    intended short and long-range program results are
    4.6 – Determine the effectiveness of agency          being obtained and whether adjustments are
    coordination with designated technical experts       necessary.
    during reviews of in-house courses to assess and     4.8. – Evaluate the agency process to ensure that
    revise both course content and training materials.   offered training correctly matches staff needs and is
                                                         available when needed.
                                                         4.9 – Determine how the agency incorporates
                                                         evaluation feedback into the planning, design, and
                                                         implementation of its training and development
                                                         efforts.



                   Figure A.1.2 – Learning Organization Diagnostic with OIG Evaluation Factors



As a result of the similarities, the evaluation team referenced the tool during the project
to provide a broader context for the nine identified evaluation factors. However, the
scope of this evaluation did not go beyond the identified factors. Figure A.1.3 below
shows how the final recommendations address all four Levers in the diagnostic tool and
provide a balanced approach to improvement.




                                                                                                            55 of 63
       Technical Pervasiveness                        Operations and Processes
 None                                                4.3 – Review how the 4.3agency identifies the
•   Determine impact of enforcing pre-requisites       • Completelevel
                                                      appropriate  HRTD    Operating Procedure
                                                                       of investment               404training
                                                                                      to provide for
    in the LMS                                        and  development
                                                       • Complete  HRTD efforts and prioritize
                                                                           Operating  Procedurefunding
                                                                                                   410 so
•   Leverage LMS capabilities to collect               • Assess skills needed to implement e-learning
    performance metrics
                                                      4.4 –
•   Leverage LMS capabilities to collect
                                                      delivery of its training and development programs,
    evaluation data
                                                      and the number of students trained.
•   Develop an e-learning strategy and
                                                      4.5 – Review the process the agency uses to
    implementation plan
                                                      determine whether to design training and
                                                      development programs in-house or obtain these
                                                      services from contractors or other…
                                                      4.10 – Determine whether the agency compares its
                                                      training methods, or outcomes with those of other
                                                      Federal agencies to identify innovative approaches
                                                      or lessons learned.

            Content Life Cycle                        Business/Organization Alignment
4.2 – Determine if the agency                         4.7 – Determine what performance data the agency
  • Review current course files                        • Develop
                                                      uses  to evaluate
                                                                    new the overall effectiveness
                                                                         performance    metrics   of training
  • Develop plan for completing missing               and  development   activities
                                                       • Develop evaluation strategyto determine whether
     course documentation                                                      -range program results are
  • –Centralize
4.6   Determinecourse    materials of agency
                   the effectiveness
  • Develop with
coordination        designated
              lifecycle         technical
                         maintenance      experts
                                      procedure
during reviews   of in-house  courses to assess and   4.8. – Evaluate the agency process to ensure that
  • Review training calendar                          offered training correctly matches staff needs and is
revise both course content and training materials.
  • Schedule courses consistently
                                                      4.9 – Determine how the agency incorporates
                                                      evaluation feedback into the planning, design, and
                                                      implementation of its training and development




               Figure A.1.3 – Learning Organization Diagnostic with Final Recommendations




                                                                                                          56 of 63
A.2 Materials Reviewed

In order to ascertain the current training and development environment at NRC, the
evaluation team conducted a thorough background review of documents pertinent to
this evaluation.


The list of documents reviewed per the SOW included:

   •   FY 2004-2009 NRC Strategic Plan

   •   FY 2008-2013 NRC Strategic Plan

   •   NRC’s Training and Development Strategic Plan

   •   NRC Strategic Human Capital and Workforce Restructuring Plan

   •   NRC’s Comprehensive Diversity Management Plan

   •   President’s Management Agenda Leadership and Knowledge Management
       Standards for Success

   •   NRC’s Strategic Workforce Planning process

   •   NRC’s Planning, Budgeting, and Performance Management process

   •   Agency Performance and Accountability Report for FY 2006

   •   Office of the Inspector General report titled Inspector General’s Assessment of
       the Most Serious Management and Performance Challenges Facing NRC, OIG-
       07-A-01, dated October 6, 2006

   •   Office of the Inspector General report titled Audit of NRC’s Technical Training
       Center, OIG-07-A-05, dated January 9, 2007

   •   GAO report titled Retirements and Anticipated New Reactor Applications Will
       Challenge NRC’s Workforce, GAO-07-105, dated January 17, 2007


                                                                                   57 of 63
   •   GAO report titled NRC Based Its Decision to Move Its Technical Training Center
       on Perceived Benefits – Not Costs, GAO-01-54, dated October 19, 2000


In addition to the documents outlined in the SOW, the team conducted a thorough
review of a number of internal NRC materials related to training and development.
These materials were provided by HRTD staff or by regional personnel and helped
support the trends identified during the background research and in-person interviews.


The list of additional documents reviewed included:


From Region I

   •   ROI 0410.4 Revision 3, Region I Training Council

   •   Training Council Agenda and Minutes, April 1, 2008

   •   Region I FY 2008 External Training Plan

   •   Region I Internal Training Schedule


From Region II

   •   ROI 0402, Rev. 5, Region II Training Program

   •   ROI 0403, Rev. 1, Regional Required Training Program

   •   ROI 0451, Rev. 10, Site Access Training for Regional Power Reactors and Fuel
       Facility Inspectors

   •   ROI 0452, Rev. 5, Respiratory Protection Qualification

   •   ROI 0603, Rev. 2, Designated Individuals to Certify Individual Study Activities
       and On-The-Job Training for Inspector Qualification

   •   Region II Training Plan


                                                                                   58 of 63
   •   Prioritizing Training Requests (a description of each priority)

   •   Region II Employees in Developmental Programs

   •   Qualification Program Sequence Chart

   •   Inspector/Examiner Qualification Status

   •   Inspector Refresher Training Status

   •   Supervisory Training Status

   •   Division Training Matrices

   •   Training Region II Has Sponsored

   •   Announcing I-Learn


From other sources

   •   Training materials used for Licensing Course and Inspection Course

   •   HRTD Operating Plan

   •   NRC Management Directives (6.8, 7.3, 7.5, 9.25, 9.29, 10.131, 10.137, 10.67,
       10.77)

   •   Inspection Manual Chapter 1245 and 1246

   •   Office of the Inspector General report titled Review of NRC’s Administration of
       Selected Contracts and Acquisition Workforce Training, OIG-04-A-10, February
       19, 2004

   •   Information Digest 2007-2008

   •   HRTD Policies (including current and draft)




                                                                                  59 of 63
•   Copy of sample statements of work

•   Copy of sample acquisition strategy milestones

•   2007 metrics tracked by TTC

•   Questionnaire for New Training Course Development

•   Report of the HRTD Working Group to Address the NRC Inspector General's
    Recommendation Regarding Student Evaluation of Instructor Performance (Oct.
    5, 2007)

•   Copies of student evaluations for a Site Access Training Course

•   e-Learning Plan

•   NRC Form 368

•   Individual Development Plan Process

•   Secretarial Qualification Program

•   Memo and form for Evaluation of Nuclear Safety Professional Development
    Program (NSPDP)

•   Sample evaluation forms for Acquisition Training and Reactor Technology
    Training

•   List of organizations/groups to which HRTD staff belong




                                                                              60 of 63
A.3 Suggested Components of an e-Learning Implementation Plan

Companies and agencies that have successfully implemented e-learning have found
these components to be important.


Technology considerations

      •   An assessment of the baseline technology requirements and capacity.

      •   A plan for roll-out of new capabilities and technologies.

      •   A maintenance plan for chosen technologies.


People considerations

      •   A change management plan. Successful organizations recognize that e-learning
          is a type of change and must be accompanied by a comprehensive change
          management plan including strategies for training users and developers.78

      •   A marketing and strategic communications plan. Studies show that the
          availability of e-learning does not automatically guarantee its use. On-going
          communications are also needed to sustain learner motivation and
          engagement.79

      •   Strategies for gaining executive level support. When the e-learning effort is
          aligned with the goals of the organization and has the visible support of senior
          management, most other barriers to implementation and acceptance will be
          minimized or eliminated.80




78
     Brandon, 46.
79
   Paul Weaver, “Preventing e-Learning Failure: Ten Pitfalls and How to Avoid Them,”. T+D Magazine, May 2002,
   45-48.
80
   Soomyung Cho and Zane Berge, “Overcoming Barriers to Distance Training and Education,” USDLA Journal
   August 2002, 16.


                                                                                                       61 of 63
Policy considerations

      •    A governance plan. Bersin suggests a three-level best practices governance
           model: 1) Steering Committee that ensures alignment of training with the mission
           and strategy of the organization; 2) Learning Council who prioritizes program
           allocations; and 3) Training Operations who are responsible for the operation and
           execution of programs, resource allocation, and measurement of satisfaction and
           results.81

      •    A plan for identification and development of standards, templates, guidelines,
           etc., that need to be in place to support e-learning.82

      •    Establishment of procedures, processes, and workflows for the development,
           delivery, and maintenance of e-learning.83 e-Learning needs to be incorporated
           into operational procedures for the analysis, design, development, delivery, and
           evaluation of training programs. An alternative is to develop separate operational
           procedures to address the different needs of e-learning.




81
     Bersin & Associates, 47.
82
     Karen O’Leonard and Josh Bersin, “Rapid e-Learning: What Works ® 2005,” Bersin & Associates, August 2005, 7.
83
     O’Leonard and Bersin, 7.



                                                                                                        62 of 63
A.4   Training Evaluation Levels

             Level                                        Description
                                  Level 1 measures how students in a training program
                                  react to it. It answers questions regarding the
  Level 1
                                  students' perceptions - Did they like it? Was the
                                  material relevant to their work?
                                  Level 2 measures the extent students have mastered
                                  the skills, knowledge, or attitude goals of the learning
  Level 2
                                  product. Evaluating at this level answers the
                                  question: Did they learn what was intended?
                                  Level 3 measures the transfer of new skills to the
                                  workplace by the learners. Evaluating at this level
  Level 3
                                  answers the question: How well did the training
                                  impact on-the-job performance?
                                  Level 4 attempts to assess training in terms of
                                  business results. Evaluation at this level answers the
  Level 4
                                  question: How well did the training impact business
                                  performance?
                                  Level 5 measures the return on investment (ROI). It
  Level 5                         answers the question: What was the financial return
                                  on investment from the program?
      Adapted from: Donald Kirkpatrick, Evaluating Training Programs (San Francisco: Berrett-
      Koehler Publishers, Inc, 1994), and Jack Phillips, Return on Investment in Training and
      Performance Improvement Programs. (Houston: Gulf Publishing Company, Houston,
      1997).




                                                                                                63 of 63
